<html>
<title> - PACE-ENERGY ACT</title>
<body><pre>[Senate Hearing 109-358]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-358
 
                            PACE-ENERGY ACT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2197

 TO IMPROVE THE GLOBAL COMPETITIVENESS OF THE UNITED STATES IN SCIENCE 
  AND ENERGY TECHNOLOGY, TO STRENGTHEN BASIC RESEARCH PROGRAMS AT THE 
   DEPARTMENT OF ENERGY, AND TO PROVIDE SUPPORT FOR MATHEMATICS AND 
SCIENCE EDUCATION AT ALL LEVELS THROUGH THE RESOURCES AVAILABLE THROUGH 
    THE DEPARTMENT OF ENERGY, INCLUDING AT THE NATIONAL LABORATORIES

                               __________

                           FEBRUARY 15, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-985                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel
                Kathryn Clay, Professional Staff Member
                  Jonathan Epstein, Legislative Fellow


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................    14
Alexander, Hon. Lamar, U.S. Senator from Tennessee...............     7
Allen, Hon. George, U.S. Senator from Virginia...................     3
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     2
Craig, Hon. Larry E., U.S. Senator from Idaho....................    12
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Menendez, Hon. Robert, U.S. Senator from New Jersey..............    34
Orbach, Raymond L., Director, Office of Science, Department of 
  Energy.........................................................     5
Proenza, Luis M., President, University of Akron.................    26
Salazar, Hon. Ken, U.S. Senator from Colorado....................    11
Talent, Hon. James M., U.S. Senator from Missouri................    38
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     9
Vest, Charles M., President Emeritus, Massachusetts Institute of 
  Technology.....................................................    20

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    43

                              Appendix II

Additional material submitted for the record.....................    53


                            PACE-ENERGY ACT

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2006

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:38 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The hearing will please come to order. 
Senators, I did not get a chance to do much other than to see 
this front page here, but I look forward to reading it and see 
how it compares with the Augustine Report. I do not know if you 
noticed. It says ``Is America Flunking Science?'' It apparently 
is an in-depth analysis of that question.
    With that, let me say this is our first committee hearing 
on the PACE-Energy legislation. I am hopeful that February 15 
at 22 minutes of 11 will be a date we can mark and look forward 
and say, starting on this day, this PACE legislation, 
Protecting America's Competitive Edge through Energy Act, also 
known hereafter as the ``PACE-Energy Act,'' that it will be a 
formidable American effort to rise above the gathering storm, 
as the great group of Americans labeled the current state of 
affairs regarding math, science, engineering, research and 
technology innovation.
    So in the report that I just alluded to, prepared at the 
request of Senators Bingaman and Alexander, that request 
concurred in by me and then put together by Norm Augustine on 
short notice, which now we are going to implement--we are 
hoping that the start of that this day and the end of it when 
we finish the bill and then when we fund it, that we can look 
back and say that, much like--and I borrow this from Senator 
Bingaman--much like Sputnik, it stirred an American awareness 
that we can do a lot better developing the brain power of 
American men and women in these fields that are so important to 
maintaining our material wealth and our national security and 
our lifestyles.
    The report enumerates all of the items that make up the 
gathering storm. Anybody who wants to read them, they are there 
and they are innumerable. It focuses on some areas that people 
might have thought just were not really part of this, but that 
was basic education way down through the grade school and 
junior high and high school, wherein they have concluded that, 
while many young people are getting great, great starts, many, 
many are faltering terribly at the basic skills and brain power 
development during those days.
    So they are even recommending--all of this is not coming to 
this committee, but some of it is--that we try to have a 
dramatic effect on how math and science is taught at the high 
school and grade school level. That is a rather terrific 
conclusion for a body of national science, of engineers and 
National Academy of Science people to say. They want us to go 
way down there and they want to be helpful.
    We are going to try to do that. Part of our bill provides 
for harnessing this brain power by retooling our teachers using 
our national laboratories for that, and other items of interest 
are in this part of the bill. It does contemplate a large 
number of new math and science teachers being given 
scholarships and then given fellowships to supplement the pay 
so they will be excited enough to stay on the job. Those are 
interesting suggestions. They are in this bill, this part of 
the bill.
    Present today are Senators who have had a terrific 
influence on this and pledge to continue.
    Senator Bingaman, I will yield to you and thank you again 
for all you have done.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman, for 
your leadership on this issue and for having this hearing so 
early in the legislative session. I think is very important. 
Thanks also particularly to Senator Alexander for all his 
leadership in getting us to this point.
    This is a very useful hearing, I hope, in trying to allow 
us to better understand how we implement the recommendations of 
the National Commission. We put out some legislation, as you 
indicated, that tries to put in place a set of some structures 
and assigns to the Department of Energy, Office of Science, a 
lot of responsibility to do what is contemplated here. I look 
forward to hearing from Dr. Orbach as to his thoughts on the 
appropriate role of the Department of Energy and his office in 
this endeavor.
    I also look forward to hearing from Dr. Vest and Dr. 
Proenza about their thoughts on this. Dr. Vest is particularly 
qualified because of having been part of this National 
Commission and part of the group that put the recommendations 
together.
    The other issue that I hope we get a better understanding 
of is this recommendation to establish a DARPA-like entity 
within the Department of Energy, and whether that makes good 
sense. I know there has been some discussion that maybe 
something different should be established instead of that. We 
need to hear from the witnesses on that subject.
    But again, thanks for having the hearing.
    The Chairman. Thank you very much, Senator.
    Before I move to the next witness, I do want to make sure 
the record reflects that--and I should have said it--the 
President of the United States in his State of the Union did 
address the issue. We are very thankful and grateful to him. 
Some of us went and talked to him and urged him. We were not 
the only ones. So you will hear throughout these various 
hearings some of the notions expressed by the President 
regarding our competitiveness shortcomings and some of the 
ideas to do them, to accomplish them.
    Some of the things we are going to do were not recommended, 
and I do not think it is that he would not agree. One of them 
is how many scholarships, new scholarships in math and science, 
should there be in this proposal. He left that to another 
approach. He is going to use other ways to fund it, Senator 
Allen, putting it in other current programs that are 
scholarships for college. But most of the thinking here, which 
will go to another committee for finalization, is this ought to 
be over and above that, ought to be a special kind of emphasis, 
much like Sputnik scholarships, so that you get momentum, but 
some of those things are not in.
    But again, when you speak with the President, like I had 
the chance yesterday, he ties this very much into energy 
because the science and breakthroughs are also the technology 
of science and breakthroughs that are going to help energy. 
That is the emphasis on science.
    So we need to find ways to pay for more than the President 
found in his budget and we are going to have to work hard on 
that together, and we are pledged to try to do that.
    Now, according to my notes, the next Senator would be on 
our side. That would be Senators Allen, Alexander, Thomas, and 
Salazar.
    Senator Allen.

         STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR 
                         FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, and I thank our 
witnesses for being here. But I particularly want to applaud 
your leadership in holding this hearing on an issue that I 
think is so important for the future of this country.
    We care about the security of our country. We care about 
its competitiveness and we care about preserving our values. 
When one thinks of some of the key issues and goals we need for 
our country, one is energy independence and the other is 
education. This fits into security. This fits into the issue of 
competitiveness. Particularly in our energy needs, I think 
there is a very good convergence here on why, for our energy 
security, we need to be the world capital of innovation.
    The President and of course everyone on this committee, as 
we went through the energy policy measures last year, talked 
not only about development of more resources here in this 
country of oil and natural gas, but also ideas such as clean 
coal technology, advanced nuclear, biofuels, and other 
approaches. We need to understand that we are in competition 
with the rest of the world insofar as a lot of issues, but if 
we are going to be the world capital of innovation we need to 
do more.
    One thing that Senator Wyden and I have worked on over the 
years is the National Nanotechnology Initiative. Nanotechnology 
is a multifaceted field that is going to affect everything from 
materials engineering to life sciences, health sciences, 
microelectronics, and energy. I was talking with Dr. Orbach 
before our hearing on how in the area, for example, of solar 
photovoltaics or solar power that shingles can be made using 
nanotechnology, not having people look like they have got 
sliding glass doors on their roof, but architecturally pleasant 
shingles that, with nanotechnology, make solar photovoltaics 
much more effective, efficient and practical, as we try to 
diversify our energy policies.
    I will note, Mr. Chairman, that the President's funding of 
the National Nanotechnology Initiative in this upcoming budget 
proposal, where this initiative is to have the Federal agencies 
work with colleges, universities, States and the private sector 
with Federal agencies. The Department of Energy is getting a 
big increase in that and I think that is going to pay off.
    As far as the competition is concerned, we are in 
competition with India and China and other countries. China 
insofar as nanotechnology, particularly in the materials 
engineering, not only do they graduate eight times as many 
engineers and India graduates three or four times as many 
engineers, they are like the George Steinbrenner in 
nanotechnology and materials engineering. They will pay to get 
the best scientists in the world, particularly in these carbon 
nanotubes, which are the key ingredient, so to speak, in 
materials engineering and these lighter, stronger materials.
    So we need to make sure that in this country we are 
enticing, incenting, and encouraging more young people to get 
interested in science and engineering and in technology. The 
others are graduating multiples more.
    Then when you look at our engineers who are going to be the 
ones designing the inventions, the innovations, the 
intellectual property of the future, one-third to 40 percent of 
our engineering graduates are from another country, which is 
fine, I want America to be the magnet for the best minds in the 
world. But for places like India, those young kids talking to 
the India Institutes of Technology leaders, those young kids, 
by the time they are in middle school, they are focused on 
passing their end of high school exams, and they look at that 
as their ticket out of poverty.
    Now, I grew up in sports, and that is fine. And people may 
want to get scholarships in baseball and football and 
basketball, and that is a one out of a million. But I guarantee 
you that you will have a much better paying job, make this 
country more competitive and more secure if you actually are in 
the fields of engineering or science or technology.
    So what we need to do--and this is why I like this PACE Act 
and this hearing that we are having, is it is a step in the 
right direction. We need more investment. We need clearly more 
talent in this country, in that out of our engineers only about 
15 percent are women, 6 percent are Latino, 6 percent are 
African American. So we need to entice all people in this 
country regardless of gender or race or ethnicity to get 
interested in these areas. Some of us have all worked together 
in those regards.
    But in addition, we need to have the investment in that 
talent. I also believe that we need leadership. Working with 
Senator Alexander and you, Mr. Chairman, Senator Bingaman, and 
others, I aim to provide that leadership, because I think this 
is clearly one of the most vital areas for the future success, 
competitiveness, and ultimately our standard of life and our 
security in this country.
    So thank you for this hearing. I look forward to the 
testimony of all these witnesses, who I think will help propel 
this issue into the future and not just talk, but we need 
action, and that action needs to be taken now. We need to be 
doubling the number of engineers in this country in the next 10 
years. It is that urgent.
    Thank you, Mr. Chairman, and I thank our witnesses.
    The Chairman. I have just been thinking about the time here 
and I regret that I made a calculating mistake here. I will not 
be able to get these witnesses if Senators give opening remarks 
and then questions. So, Senator, you have been fortunate.
    Senator Allen. Before you figured it out.
    The Chairman. Once I figured it out, I did not want to stop 
you. So we are going to go now. Everybody will get their turn, 
Senators, but I am going to go to the witness. Your statements 
are now a part of the record. You will talk to us. We gave you 
an allotted time, if you would please try to use it. Tell us, 
in your capacity representing the administration, what you 
think about the bill and what you recommend. Please proceed.

 STATEMENT OF RAYMOND L. ORBACH, DIRECTOR, OFFICE OF SCIENCE, 
                      DEPARTMENT OF ENERGY

    Mr. Orbach. Senator Domenici, Mr. Chairman, Ranking Member 
Bingaman, members of the committee, thank you for the 
opportunity to appear before you to discuss the Pace-Energy 
Act. As you noted, the President's American Competitiveness 
Initiative, unveiled in his State of the Union message, 
demonstrates his commitment to strong and continued U.S. 
competitiveness through a national effort in basic science 
research and education.
    He said: ``Our greatest advantage in the world has always 
been our educated, hard-working, ambitious people, and we are 
going to keep that edge.''
    The State of the Union message and the subsequent release 
of the President's fiscal year 2007 budget contained 
substantial increases for basic research in the physical 
sciences and that is part of that strategy. America's 
competitiveness, as you have already noted, is a result of the 
ingenuity of the American people and this native ingenuity can 
be nurtured and brought to fruition through the application of 
the President's American Competitiveness Initiative.
    That the Office of Science has been entrusted with this 
responsibility is a wonderful statement of confidence in our 
ability to support the President's initiative. We are fully 
aware that the substantial increases in the Office of Science 
budget request for fiscal year 2007 makes us indebted to the 
President for his foresight in recognizing the vital importance 
of America's continued leadership in the physical sciences.
    We are committed to holding up our end of the bargain by 
delivering truly transformational science and technologies, 
breakthrough advances that will provide new pathways to energy 
security and ensure America's continued global economic 
leadership in the years ahead.
    If I can take Senator Allen's reference to sports, in 
tennis the dictum is you never change a winning game. For 50 
years our country has benefited from the investment in science 
and technology and given us the greatest economy in the world. 
We do not want to change that. We want to continue.
    The Office of Science trains our next generation of 
scientists and engineers. Roughly half of the researchers at 
our facilities are university faculty or graduate or 
postdoctoral students. The Office of Science is the steward of 
government funding for the physical sciences in this country.
    The administration welcomes the opportunity to discuss with 
you methods to accelerate progress in promising energy 
technologies, some of which may well require breakthroughs in 
basic science research. These important concerns were 
articulated clearly in the Augustine Report.
    I wish to thank you again and the committee for the 
opportunity to be here and to testify, and I look forward to 
answering any questions you may have.
    [The prepared statement of Mr. Orbach follows:]

  Prepared Statement of Raymond L. Orbach, Director of the Office of 
                     Science, Department of Energy

    Good morning, Chairman Domenici, Ranking Member Bingaman, and 
members of the Committee. I am pleased to appear before you to discuss 
S. 2197, the Protecting America's Competitive Edge through Energy Act 
of 2006--also known as the PACE-Energy Act--which you introduced on 
January 26th.
    The President's American Competitiveness Initiative (ACI), unveiled 
in his State of the Union message, demonstrates the President's strong 
commitment to continued U.S. competitiveness through a renewed national 
effort in basic scientific research and math education. To repeat the 
President's own words: ``We must continue to lead the world in human 
talent and creativity. Our greatest advantage in the world has always 
been our educated, hardworking, ambitious people--and we're going to 
keep that edge. Tonight I announce an American Competitiveness 
Initiative, to encourage innovation throughout our economy, and to give 
our nation's children a firm grounding in math and science.''
    The State of the Union message, and the subsequent release of the 
President's FY 2007 budget that contains substantial increases for 
basic research in the physical sciences, are all part of the strategy. 
America's competitiveness is truly a result of the ingenuity of the 
American people. This native ingenuity can be nurtured and brought to 
fruition through the precise application of the President's ACI.
    The FY 2007 budget includes a $505 million increase in DOE's 
Science programs, which is part of a commitment to double funding for 
certain high-leverage science agencies over the next ten years. The ACI 
recognizes that scientific discovery and understanding help drive 
economic strength and security. Developing revolutionary, science-
driven technology is at the heart of the Department of Energy's 
mission. The increase proposed for the Department's Science programs 
reflects the significant contribution DOE and its world-class research 
facilities make to the Nation.
    The President's ACI will encourage American innovation and bolster 
our ability to compete in the global economy through increased federal 
investment in critical areas of research, especially in the physical 
sciences and engineering, in large part through DOE's Office of 
Science. This initiative will generate scientific and technological 
advances for decades to come and will help ensure that future 
generations have an even brighter future. The Office of Science is 
educating and training our next generation of scientists and engineers. 
Roughly half of the researchers at Office of Science-run facilities are 
university faculty or graduate or postdoctoral students (who work side 
by side with scientists and researchers employed directly by the labs), 
and about a third of Office of Science research funds go to 
institutions of higher learning.
    Finally, the Administration welcomes the opportunity to discuss 
with Congress methods to accelerate progress in promising energy 
technologies, some of which may well require breakthroughs in basic 
science research. These important concerns were articulated very 
clearly in the Augustine Report. The specific proposal for the creation 
of an ARPA-E is not in the President's budget, and we have concerns 
about the creation of this additional mechanism, the resources that 
would be required to fund it, and whether there might be alternative 
and better ways to accomplish its goals. However, we are ready to work 
with you to explore these questions.
    The DOE's Office of Science is the steward of government funding 
for the physical sciences in this country. We operate 10 national 
laboratories, and a number of scientific facilities, that provide 
superb facilities for the Nation's scientists, allowing them to perform 
multi-disciplinary scientific research at the frontiers of discovery. 
Yet, it falls to us to inspire our young people with the possibilities 
of science, mathematics, and engineering at DOE facilities, if we are 
to maintain our edge.
    I thank the Chair and the committee for this opportunity to testify 
and look forward to answering any questions you may have.

    The Chairman. You had written testimony in addition to 
that, did you not?
    Mr. Orbach. Yes, sir.
    The Chairman. We will ask you some questions about that.
    Now we are going to go to the Senators in order. Senator 
Allen, you have finished.
    Senator Alexander.

        STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Alexander. Thanks, Mr. Chairman.
    Thank you for being here, Mr. Orbach. We have all been 
looking forward to your appearance and I have several questions 
about the PACE Act and I will submit them to you so that you 
can answer them in writing, if you would do that, please. But 
first let me thank Chairman Domenici and Ranking Member 
Bingaman and the members of the committee for their leadership 
in this. The PACE Act that we are talking about now has 34 
Republican sponsors and 31 Democratic sponsors--that is nearly 
two-thirds of the Senate--and 20 of the 22 members of this 
committee are co-sponsors of the act. So the ownership of this 
idea is all over the Senate and has been for several years.
    But we owe a great debt of gratitude to Dr. Vest and the 
other members of the National Academy's panel for giving us 
what has turned out to be a consensus document, a document that 
comes from the National Academy of Sciences and the Institute 
of Medicine and the National Academy of Engineering, that 
answers the question, what does America need to do over the 
next 10 years to keep our advantage in science and technology.
    We know that that is the foundation for keeping our--our 
effort to keep good jobs from going to China and India, to be 
able to fight the war on terror, to be able to innovate our way 
so that we can reduce the cost of health care. It is the 
foundation for our preeminence in the world and our high 
standard of living. So we are grateful to you for that.
    We are grateful to the President and the administration for 
working with us since early last fall. Most people did not see 
the homework sessions that you attended and Senator Domenici 
presided over and others attended, which involved many members 
of the administration as we worked through the 20 
recommendations of the Augustine Commission. So while only a 
few of the recommendations are in this committee, many of the 
others are in the HELP Committee, which I am a member of, and 
we will begin hearings later this month on the parts of the 
Augustine Commission report that are in K-12.
    My hope is that through this committee and the HELP 
Committee and the Commerce Committee and the Finance Committee 
that we will find a way to take all 20 of the recommendations 
to the floor of the Senate. Senator Domenici and other 
committee chairmen and the leadership are going to have to 
figure out how to do that. It is a little bit above my pay 
grade, but I think we are on a track to do that.
    I would like to make one other preliminary comment and then 
ask you questions. We talk a lot about having a pro-growth 
agenda in the Senate. We especially talk about that on the 
Republican side of the aisle. It is not our term exclusively. 
And then we go directly to low taxes. In my experience as a 
Governor, low taxes are a part of a pro-growth agenda, but not 
the only part.
    I believe an indispensable foundation for a pro-growth 
agenda for the United States of America is to maintain our 
advantage in science and technology and that the Augustine 
Report provides a specific answer to the question on how to do 
that. So we need to do it as a whole, all 20 parts, and that is 
why it is so significant that we have 65 Senators of both 
parties supporting it.
    Now, let me begin with this question and then when my time 
expires I will submit the rest of the questions in writing. In 
this, in the PACE Act, although it was not in the Augustine 
Report, is a provision that Senators Domenici and Bingaman and 
I put in which would create up to 100 distinguished scientists 
with joint appointments at national laboratories, of which 
there are 17 in our country, I believe, and our major research 
universities.
    It is based on a model that the Department of Energy began 
20 years ago at the University of Tennessee and Oak Ridge 
National Laboratory, which in my opinion has proved very 
successful. Our idea is that the Federal Government will put up 
$1 million each year for an academy-level distinguished 
scientist and that the State and the university would then 
apply to you, to your Department, and they would compete for 
these, and set up these little centers of extraordinary 
excellence headed by a distinguished scientist. We might do 10 
or 15 a year as long as it continued to attract outstanding 
people.
    Now, that was not in the PACE report, but what would be 
your attitude about that proposal and its effectiveness as you 
have looked at the last 20-year model at the University of 
Tennessee and Oak Ridge National Laboratory? I might add, this 
is for the whole country; this is not just for the University 
of Tennessee and Oak Ridge National Lab?
    Mr. Orbach. I have to say that that model has worked 
extraordinarily well. Another feature of it was the 
introduction of specific fields both at the university and at 
Oak Ridge by picking individuals of exceptional caliber in 
areas of need. That led the way to major advances.
    The administration has not yet taken a formal position, but 
I can say personally that bringing the very best people to our 
laboratories, giving them the opportunity to have the freedom 
to work on projects that are essential to our country, has been 
a proven vehicle for innovation and discovery.
    Senator Alexander. Thank you, Mr. Chairman. Mr. Chairman, 
may I submit questions in writing to Mr. Orbach and then ask 
him to provide answers? Senator Domenici is on a pretty fast 
track here and we would like to have your comments on our 
legislation so that we can incorporate your ideas in addition 
to the suggestions you have already given us.
    Thank you for your time.
    The Chairman. I thank you for that, and I think that is 
correct and we would like you to do that.
    Mr. Orbach. I would be pleased.
    The Chairman. I do not know whether you can right now 
figure out how long that would take, but could you advise us 
when you get back to your office with your staff how long 
before you could do what we are asking you?
    Mr. Orbach. Yes, we will work as quickly as possible.
    The Chairman. I understand, but then could you give us a 2 
weeks or 10 days, just for our own work? Just tell us what you 
think it is?
    Mr. Orbach. Yes, we will.
    The Chairman. Thank you.
    Now we are going to proceed. We are going to stay on this 
side a little bit longer because they were here for a long 
time, if you do not mind.
    Senator Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    The Chairman. Then we will go to you, Senator Salazar.
    Senator Thomas. I guess it is fairly apparent that we are 
all very much oriented and supportive of moving forward in this 
area. It is part, of course, with respect to energy what we did 
in our energy policy last year, and that is to say we have to 
be looking forward to what happens, and I certainly support 
that.
    I must confess, however, that as we look at research, why, 
I get a little concerned about how are we going to make sure we 
orient this toward the needs that we have here? Research sort 
of becomes just sort of an academic function from time to time 
and goes on and on, as opposed to being oriented. So how would 
you suggest that we at least put priorities in some of this to 
actually accomplishing some of the things we need to do for our 
energy independence?
    Mr. Orbach. The PACE Acts actually are helpful in that 
regard in that they are focused on the energy needs of our 
country. There has been a groundswell of enthusiasm and 
interest on the part of both our researchers and our students 
in energy, exactly as you said, and I believe that we can 
attract the very best of our young people into this field by 
providing support, research support and opportunities for 
innovation and development leading toward energy security.
    I think a targeted program of that sort will produce 
hopefully the breakthroughs that we need. We call them 
transformational opportunities for energy.
    Senator Thomas. What will be the basis for your targets?
    Mr. Orbach. We have chosen two primary areas in the Office 
of Science. One is biological, interestingly enough, what we 
call systems biology, to mimic what nature does, but do it 
synthetically in order to arrive at new energy sources, for 
example taking solar energy and producing fuels, mimicking in a 
way what happens in photosynthesis.
    We also have a focus on solar energy. Solar is a huge 
resource which we use relatively inefficiently and the idea of 
not only electricity, but, as I just said, fuels, which brings 
together the physical and the biological sciences in an 
integrated fashion, to me and to our Secretary I believe are 
some of the most exciting opportunities.
    Senator Thomas. I am going to run out of time here shortly. 
I hope that we can have some direction because research can go 
on forever, and we have some needs here that has to be 
resolved. So how do you, or do you, intend to involve the 
industry, for example?
    We have at least two areas here. One of them is out 50 
years and that is one thing. Another is 5 years from now as to 
how we do some things differently than we are doing now. So I 
guess my question is how do we bring in specifically the needs 
of the industry to supply our needs into what you are doing.
    Mr. Orbach. It needs to be a staged operation. For example, 
I would say in the near term nuclear energy would be a great 
opportunity for the production of electricity, for example. The 
cellulose to ethanol that the President addressed specifically, 
we think we can do proof of principle, but it is going to 
take--it is a tough business--5 to 10 years before it is truly 
competitive. But if we do not start now, we will not arrive at 
that point.
    Senator Thomas. I understand. I just am urging that we have 
some sort of diversity in research so that we deal with more 
than one problem out there and that we bring the industry in a 
little bit and other people in to what the needs are, so that 
research just does not go on forever without pointing at some 
fairly specific objective.
    Mr. Orbach. My understanding is that industry is very keen 
to work with us and is looking for opportunities that come from 
research.
    Senator Thomas. The other thing, when you continue to talk 
about getting people into the industry, that is part of the 
function of the marketplace, is when there is more demand for 
those kinds of people there ought to be more movement in that 
direction. You do not have to go down to the third grade 
necessarily as much as you do to provide good opportunities for 
people to be able to see those opportunities in order to make 
things happen.
    So I am a little reluctant to be totally into the academic 
here. We have some purposes that we have to really resolve. So 
thank you.
    The Chairman. Are you finished?
    Senator Thomas. Yes, sir.
    The Chairman. All right, we are going to go now to the 
other side. Senator Salazar. First might I say that we all are 
very pleased that you are such a participant. You do come to 
all our meetings and work on this and I am very proud to have 
you on the committee and I thank you for your effort. In 
particular yesterday when we met with the President, I thought 
your comments about your ideas were excellent and I wanted to 
share that with you.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Mr. Chairman.
    Let me first say, Mr. Chairman and Ranking Member Bingaman 
and members of the committee, I think that the bipartisan 
approach that this committee took last year on the National 
Energy Policy Act is again reflected here in our support of the 
PACE Act. It is my fervent hope that we continue to work on a 
new chapter of national energy policy, and I think, with the 
President's leadership and the bipartisan leadership of this 
committee, that we can see a whole new chapter of energy policy 
for our country.
    Let me also say that as we look at part of that energy 
policy I think all of us recognize that renewables are going to 
be a part of that and, with the President's visit to the 
National Renewable Energy Lab in Golden next week, it may be 
possible for some of you to participate in that event since we 
will be on recess.
    Now to the PACE Act, let me just say I think the outpouring 
of support that we have seen for this legislation in the Senate 
I think speaks to the unity that we have with respect to the 
importance of this program and this legislation that we are 
considering.
    My question to you, Dr. Orbach, has to do with the national 
labs and how the program would work with respect to the 
training of teachers in the math and sciences. That is a key 
component of the act. We have a shortage obviously of the 
training of teachers in math and science, and I am wondering 
whether you could respond to the opportunity of how we hook up 
our DOE labs to the training of teachers in our K-12 system.
    Mr. Orbach. This is something that we are committed to. Our 
national laboratories already do have summer institutes to 
bring K-12 teachers to the laboratories and their students, and 
we have pretty firm evidence that it has worked well on a 
modest scale. I think the opportunity to enhance the number of 
teachers that we bring--indeed, the fiscal year 2007 budget 
would triple the number of teachers that we bring to our 
laboratories, but it is still small. It is about 300.
    The laboratories themselves have expressed significant 
interest. NREL for example that you made reference to is an 
example of a laboratory that works with K-12. We see that 
across the spectrum, and I think this is a resource really for 
our country to take advantage of. So I would support that part 
very strongly.
    Senator Salazar. If you were to describe the funding that 
is being proposed in the President's budget for that component 
of the program, is it sufficient, insufficient? Do we have to 
do a lot more? At some point it seems to me that the 17 labs 
reach a capacity limitation in terms of what they can do 
relative to training, or maybe I am wrong on that assumption.
    But what do you--if money was not a barrier, what is the 
capacity, if you will, of the DOE labs to provide this kind of 
training to math and science teachers across the country? Three 
hundred teachers is not very much, I will tell you, because if 
you look at the number of teachers that we have just in my 
little old State of Colorado, we have about 30,000 teachers. So 
we are not training very many teachers.
    So I guess the question is what is the capacity?
    Mr. Orbach. I do not know if we know the answer to your 
question. I should say that these teachers who go through our 
programs have become the mentors of their colleagues in their 
districts. We follow up on the ones who went through the 
program and they stand out in their district. So there is a 
multiplier effect that occurs.
    The budget that we submitted will, as I say, triple the 
number. I cannot answer your question in terms of how many we 
could in fact absorb. We are learning how to do it, but I think 
the opportunities in the laboratories are significant and I am 
very pleased to pursue that, just given the success that we 
have had.
    We have had some quantitative estimates of the impact. At 
Thomas Jefferson Laboratory, for example, there is a program 
called BEAMS and this is primarily for schools with a very 
diverse student body and relatively low income students. We 
followed the students through the Virginia examinations in both 
science and mathematics for those who went through the program 
and then measured that performance against students who had 
not. They do better by almost a factor of two in mathematics.
    So we think that these are proven programs and we have 
quantitative evidence of how well they have worked. So we are 
very supportive and, as I said, the President's budget will 
triple the number that we currently have.
    Senator Salazar. I appreciate your leadership and we very 
much look forward to working with you, Dr. Orbach.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    All right. We will go to you, Senator Craig. I think you 
were first.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Thank you, Mr. Chairman. I will be very 
brief.
    We are pleased to have you before us, doctor. I guess I 
will only make a brief statement. You can respond to it if you 
wish, but I am here to listen to, obviously, the other 
witnesses, and have been a bit of a student of the Augustine 
Report, find its value, and am extremely pleased that we are 
moving as aggressively as we are to shape this legislation. I 
want to thank the chairman, Senator Alexander, and others who 
have been up front on this.
    My question to you is this. I look around the room today, 
there are a variety, a fair number of young people sitting in 
the back audience listening. What do we do to turn them on? We 
are a wealthy, comfortable society today. We bask in our 
wealth. We have phenomenal free time. We luxuriate in it. What 
turns on a young person to achieve as aggressively as we will 
need them to achieve in the future to be what we want to 
continue to be?
    I say that for this simple fact. If a student graduating 
from any high school today entering a State university and 
becoming a freshman student in engineering cannot deal with 
university calculus upon entry but has to take a refresher 
course, only 15 percent of them will make it through and 
graduate as an engineer. But if they can start at university 
level and go on and not take the refresher course in calculus, 
80 percent of them will graduate as engineers.
    I know what we are attempting to do with PACE. I will 
support it and applaud it. But I as a very young person 
remember the beep, beep, beep of Sputnik and the panic our 
country went into because someone was in front of us, ahead of 
us, and beating us. In the early 60's we established the 
National Defense Education Act and we challenged young people 
to get with it, and boy, did they ever, and the rest is 
history.
    I do not sense that emergency today. I sense an urgency. I 
believe we are in a national energy crisis that is sapping our 
economy and ultimately destroying the luxury and the wealth 
that these young people bask in today.
    How do we turn our country on? Just by spending money or by 
a national movement, a cause, a deadline? You see, I do not 
think we ought to be just energy sufficient. I think it really 
ought to be a national goal that we are independent. Now, I am 
a wonk on energy and I will sit here and say, well, gee, 
Senator, you really cannot get there, you cannot do that. I 
mean, we can do this and we can do that, and we have got all 
these new technologies, but we really can never be independent.
    Why not? Well, how do you define it? Less than or a lack of 
dependency, that is what independence is.
    Well, that is a frustration I have, and I know we strive 
and we will spend billions of dollars getting there somehow. We 
are going to try. But I want to know what is going to make a 
young person study harder. I want to know what is going to 
challenge them to be better than they are today, what is going 
to make them prepare and be university-ready. Is it our 
educational system? Is it that we have not funded it well 
enough? Or is there a need for a national driver, a belief, an 
idea, a goal, a challenge, that somehow we just cannot quite 
get to yet because of our wealth and our sense of comfort 
today? I do not know and I am not sure that we get it here.
    Mr. Orbach. I am a child of the Sputnik generation.
    Senator Craig. Likewise.
    Mr. Orbach. And I can tell you that the verve, the 
commitment of this country to catch up and surpass was what 
drove me and I suspect yourself as well. I believe that the 
energy crisis that we are in the middle of----
    Senator Craig. Well, you just used the right word, 
``crisis.'' How many others are using that?
    Mr. Orbach. I think it is generally accepted it is a 
serious moment, and I think you outlined very beautifully the 
reasons why it is a crisis.
    I believe that our young people are motivated and that if 
we can give them the opportunity to contribute they will. My 
own belief is that young people are excited by discovery and I 
want to make the discoveries here in the United States. So it 
is critical to me that our science is the best in the world and 
that we make the discoveries here with our graduate students 
and our undergraduate students and that kids in K-12 see it, 
sense the excitement, and join the movement.
    It has happened before and I believe it will happen again.
    Senator Craig. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Larry.
    Senator Akaka.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you and the ranking member for your leadership in energy 
across our country. I also want to thank my dear friend Senator 
Craig for his remarks because I feel that it is so important to 
our country, and also the remarks of my friend from Colorado.
    I would like to put it in--what has happened since 2001. In 
2001 the Hart-Rudman Commission did come out to say that there 
was a deep need for a workforce skilled in science, math, 
computer science, and engineering. That was in 2001, and what 
Larry Craig is talking about is what has happened since then. I 
would say that their note of the need in 2001 is the same need 
we have in 2006. What happened in 5 years?
    So what is being expressed here is a deep concern that we 
have to move on this and, as Larry Craig was mentioning, we 
have to get to our young people, to inspire them to want to 
make a difference. That difference is being a global leader in 
energy in the world. The big question is can we do that? Do we 
have the skilled people that can do that? That is the question 
that we have to deal with today.
    [The prepared statement of Senator Akaka follows:]

  Prepared Statement of Hon. Daniel K. Akaka, U.S. Senator From Hawaii

    Mr. Chairman, thank you for calling this hearing on S. 2197, the 
PACE-Energy Act. I am pleased that we are joined today by such a 
distinguished panel of experts to testify on this important initiative.
    In 2001, the Hart-Rudman Commission said that America needs a 
workforce skilled in science, math, computer science, and engineering. 
They said that the failure to foster these skills was jeopardizing 
America's position as a global leader. The Commission also found that 
the maintenance of American power in the world depends upon the quality 
of U.S. government personnel. It requires employees with more expertise 
in more countries, regions, and issues. This includes a commitment to 
language education.
    What has changed in five years? Very little. The Commission was 
right in 2001. The same Commission could reach the same conclusion in 
2006. It pains me to say this because some of us in Congress have been 
trying to get action for years.
    Four years ago, Senator Durbin and I joined forces with a 
bipartisan group of Senators to introduce legislation to strengthen 
national security by encouraging the development and expansion of 
programs to meet critical needs in science, math, and foreign languages 
at the elementary, secondary, and higher education levels. I also 
introduced legislation to strengthen education opportunities for 
federal employees in these critical areas, and improve the government's 
recruitment and retention of individuals possessing these skills. Last 
year, Senators Cochran, Dodd, and I introduced legislation to develop a 
national foreign language strategy. Right now, I am working with 
Senator Durbin to strengthen the Homeland Security Education Act from 
the 108th Congress, which we look forward to introducing shortly.
    Some of these proposals have become law. Others were passed by the 
Senate, but the House refused to consider them. The Intelligence Reform 
Act of 2004 established two things promoted in our legislation. First, 
a rotation program to help mid-level federal employees in the 
Intelligence Community improve their skills. And second, a scholarship 
program for individuals who possess critical skills, especially those 
in science, math, and foreign language, in exchange for service with 
the federal government.
    Still, America should rightly ask: why has it been so hard to make 
even these modest improvements? Especially when there have been 
numerous national studies and commissions that conclude we need to do 
better at educating Americans.
    As many of my colleagues on this Committee know, I began my 
professional career as an educator. Fighting to ensure a prosperous 
future for our country and for Hawaii's children is why I am in 
Congress today. That is one of many reasons that I signed on as a 
cosponsor to S. 2197. I believe that this bill is a timely proposal 
that can make a real difference, for both the short-and long-term, in 
the United States's global competitiveness in science and energy 
technology. By providing support for mathematics and science education 
at all levels through the resources available through the Department of 
Energy, including at the National Laboratories, I believe that this 
bill takes the important step of giving the next generation the tools 
they need to be successful in tomorrow's global economy.
    Thank you Mr. Chairman. I have some concerns and questions that I 
will ask during the question and answer period.

    Senator Akaka. So Dr. Orbach, I want to tell you I am so 
happy to see you here this morning. You can in your position 
make a big difference in all of this, being Director of the 
Office of Science, and as you promote hydrogen, fusion, and 
other cutting edge energy initiatives. These are all important 
to our young people and our skilled workers in our country.
    This is, as you mentioned, critical for America's 
competitiveness. I support the goals of the PACE bill.
    I want to follow up on financing for these proposed 
education initiatives since I noted concerns in your testimony. 
If I understand correctly, three-tenths percent of the total 
Department of Energy appropriations would be set aside for a 
math, science, and engineering education fund. Second, there 
would be a revolving fund established in the Treasury 
Department that would help fund the Advanced Research Projects 
Authority for the Department of Energy, if I understand that.
    I am interested in any comments you may have or additional 
thoughts you may have on these two provisions in particular 
about financing promising energy technologies and encouraging 
scientific education and teaching. I am asking for your 
comments and your thoughts. Thank you.
    Mr. Orbach. The administration has not yet thoroughly 
analyzed those parts of the bill and I will be pleased to 
respond for the record on the details of the questions you 
asked. With regard to the .3 percent, we also are looking 
within the Department of Energy at that particular issue. I 
should say that if you take the current expenditures on 
education directly from my office and the national 
laboratories, it actually exceeds that particular percentage. 
But we will get the details to you explicitly.
    [The information referred to follows:]

    The Energy Policy Act of 2005 already amended the Science 
Education Enhancement Act to include a provision for a 
``Science Education Enhancement Fund'', composed of ``not less 
than 0.3 percent of the amount made available to the Department 
for research, development, demonstration, and commercial 
application''. The PACE-Energy Act would further amend the same 
section of the Science Education Enhancement Act to change the 
title of the fund to the ``Mathematics, Science, and 
Engineering Fund'', in the same amount as the Energy Policy Act 
provision.
    The 0.3 percent set aside for the ``Math, Science, and 
Engineering Education Fund'' would amount to roughly $40 
million dollars a year when applied against all research, 
development, demonstration, and commercial application funding 
within the Department. If you include all sources of funding 
for education, including direct funding by DOE as well as 
education programs funded by the national laboratories you will 
find that DOE funding exceeds the figure called for in the 
PACE-Energy and Energy Policy Acts.

    Senator Akaka. May I pose another question? I have 
previously spoken about the need to rely less on oil and 
natural resources--even the President has mentioned this--and 
look more toward the use of advanced technology to facilitate 
renewable energy resources. The PACE-Energy bill includes a 
provision to establish the Advanced Research Projects 
Authority-Energy. This organization will be headed by a newly 
appointed director who will have authority to award competitive 
merit-based grants, cooperative agreements and contracts to 
public or private entities.
    Given that this office will be charged with rapidly 
developing critical energy technologies, do you anticipate that 
the director would have any special acquisition authorities to 
expedite the research and development? And if so, will you 
ensure that the efforts of the ARPA-E office will not result in 
loosely managed resource projects that do not yield the desired 
results?
    Mr. Orbach. It would be premature for me to comment on that 
specific recommendation. Again, the administration is looking 
at it and would be pleased to respond for the record. The 
Energy Policy Act gives the Department additional tools for 
acquisition beyond the FAR in the Federal Government and 
therefore we have tools that I believe can address the issues 
that you raise. Certainly we would have every desire that that 
money be extraordinarily well spent.
    [The information referred to follows:]

    The Administration and the Department of Energy are in the 
process of evaluating the provisions of S. 2197, the Protecting 
America's Competitive Edge through Energy Act of 2006--
including the ARPA-E provisions. As our assessment proceeds, 
however we would be happy to discuss our views on ARPA-E or 
possible alternatives with you or your staff.

    Senator Akaka. Thank you very much for your response.
    Thank you, Mr. Chairman. My time has expired.
    The Chairman. Thank you.
    Mr. Orbach, could I ask a couple of questions, please. I 
understand from your testimony that the Department has not yet 
formed an opinion on the proposal for an Advanced Research 
Program Authority.
    Mr. Orbach. Yes, sir, that is correct.
    The Chairman. Is that correct? But I am pleased that you 
are open to discussing it, right?
    Mr. Orbach. Yes, we would be delighted to work with you on 
the definition of that and the primary reason for it, namely 
the rapid transmittal of true transformational technologies 
into the market, which I believe to be the driving force.
    The Chairman. Yes. This year's budget represents an 
increase in the DOE Office of Science and that would be about a 
14 percent increase over 2006. That would allow you to do what 
you can to increase your activities. From what you know, do you 
have a program capacity to handle that and spend it on valuable 
activities?
    Mr. Orbach. Mr. Chairman, first of all, we are blessed by 
the President's confidence in us. We believe we can spend those 
funds well for the purposes that you have so clearly 
articulated in your opening remarks. About half of that, that 
increase, would be used to operate our current facilities, to 
bring them up to as close to optimum as we can, and the other 
half is for research, to go into our universities and 
laboratories to fund research.
    There is also in the core of the budget, we call it order 
of magnitude dominance, if I can use that phrase. We need to 
build the facilities for our scientists and students that are 
world leadership, and we will be rolling out, as a consequence 
of the President's confidence in us and this budget increase, 
facilities that will dominate research for a decade at least 
and will give our scientists opportunities that no one else 
will have on a competitive basis, but it will be done here.
    So we view this wonderful increase as an opportunity to, 
frankly, to show our stuff and show what we can deliver.
    The Chairman. What is the acronym for the inflexible money 
that the Department of Energy uses through its laboratories?
    Mr. Orbach. It is called the alternate financing. I have 
forgotten the name.
    The Chairman. LDRD.
    Mr. Orbach. Well, LDRD is a vehicle that all of our 
laboratories use to do very high-risk development and to, as 
you well know, move us into new areas of opportunity. I was 
actually referring to the acquisition----
    The Chairman. I understand, but I am on another point. Now, 
you concur in the office you hold with the assessment by those 
who now are vested with that flexible money that that is a very 
exciting way to make--to apply resources so that you get real 
breakthroughs?
    Mr. Orbach. Absolutely, and it is quick and it is targeted. 
We review it as well. It has proven to be a major nourishment 
for innovation at our laboratories.
    The Chairman. Now, I wonder--and I will ask the other two 
witnesses later. The report says we should continue that, but 
it also says that--and we are going to try in this 
legislation--that we should tell ever other major institution 
that funds science that they ought to have something like this 
LDRD. Call it something else, but 8 percent or 10 percent that 
is flexible, to be directed by the institution, as we are doing 
now.
    I wonder what you would think if, in addition to that, we 
said that for the foreseeable future you have to direct as much 
of that as possible at energy technology, energy science and 
technology development. What would your thoughts be?
    Mr. Orbach. Well, I believe we are doing just that.
    The Chairman. Well, you are, but what if we had everybody 
do it?
    Mr. Orbach. I can only speak, sir, for----
    The Chairman. But you are a scientist and you know what is 
happening in the country. I am wondering, since we are kind of 
dancing around here wondering how much of this bill is for 
energy independence and how much of it is to develop our 
science base, and can there be a commonality, I am just 
wondering would you think it would be a good idea to apply it 
more broadly?
    Mr. Orbach. In answer to Senator Craig's question, I 
indicated that the young people of this country are really 
excited by opportunities, and the answer to your question, Mr. 
Chairman, I believe is yes. I think that you would find a 
resonance with young people and with senior researchers who 
would take advantage of these opportunities and really do some 
exciting things.
    The Chairman. Thank you very much.
    Senator Bingaman.
    Senator Bingaman. Thank you very much.
    Let me just understand. I believe I understood you 
correctly to say that in the budget proposal you are proposing 
to triple the number of teachers that you are able to train in 
summer institutes at the labs and you will be able to train 
under this new proposal 300, which means you are currently 
training 100?
    Mr. Orbach. That is correct, 108 to be precise.
    Senator Bingaman. 108 nationwide?
    Mr. Orbach. Yes, sir.
    Senator Bingaman. That hardly registers on the Richter 
scale compared to the size of the problem that we have to deal 
with here. I mean, I think it is a good thing to do. Obviously, 
I think it is a great opportunity for those 108 teachers and it 
will be for the 300 as well. But it is not a real solution to 
our problems of training science and math teachers for our 
public schools. Would you agree with that?
    Mr. Orbach. Well, I believe that it is a realistic estimate 
that we can make work in the President's fiscal year 2007 
budget.
    Senator Bingaman. I do not disagree with that and I 
compliment the President for asking for enough money to train 
300. But I am just saying it is not a realistic solution to the 
magnitude of the problem. The magnitude of the problem requires 
a much, much greater effort than anything that we are 
discussing here, would you agree with that, or that is in your 
budget, I guess I should say?
    Mr. Orbach. The budget is a carefully crafted document. As 
the chairman indicated, it represents a 14 percent increase. It 
is our view that the balance that we have in the document is 
appropriate. The needs are indeed significant across our 
country, but I think that we know we can deliver on this.
    Senator Bingaman. Let me tell you a sort of a gnawing 
concern I have got about us putting the additional 
responsibility that is called for in this act for math and 
science education in the Department of Energy. I have been 
here, most of my colleagues have been here, over a couple of 
decades now and we have watched the issue of science education, 
math education, in the Department of Energy sort of ebb and 
flow. I can remember when Admiral Watkins was our Secretary of 
Energy. He was committed to doing more through the Department 
of Energy to improve math and science education in the country 
and he spoke about it and he advocated for it and he was a 
great champion.
    Some of the others who followed him have not had that same 
perspective. Not that they were anti-math and science, but just 
they did not see it as their primary job. It was someone else's 
job. We have a Department of Education and their view was that 
is their job, it is not our job.
    Are we trying to put a square peg in a round hole here by 
saying, no, no, we are going to make this a significant mission 
of the Department of Energy? I mean, are we not running the 
risk that future secretaries, not Secretary Bodman but future 
secretaries, may or may not embrace this as a significant 
responsibility and may or may not have any real desire to do 
something here?
    When you get into a period of constrained budgets, you have 
got to cut somewhere. This is a pretty good place to cut if you 
have got a lot of other responsibilities for the nuclear 
weapons program, for all sorts of other things. So how do you 
respond to that? Are we trying to force-feed the Department of 
Energy to do stuff that the Department is not naturally 
designed to pursue?
    Mr. Orbach. Senator, I believe our Department is not only 
capable and eager to pursue it, but I think you have a 
constellation of stars that gives us in the next 3 years 
opportunities to really do something significant along the 
lines of Admiral Watkins. The President has made a personal 
commitment in the State of the Union. Secretary Bodman is a 
product of one of our finest universities and a faculty member 
at that university. He is committed to education. I believe 
that what we can do in the next 3 years is to lay such a 
successful initiative, using the resources of the Department to 
which you referred, that it will be self-sustaining. It is 
impossible to predict what will happen many years from now, but 
the need is here and I think the resources of the Department 
that you and your colleagues have correctly identified are 
opportunities for our country.
    With the President's initiative and Secretary Bodman's 
support, I believe you will have a significant force for the 
future.
    Senator Bingaman. Thank you very much.
    The Chairman. Thank you, Senator Bingaman.
    Senator Craig.
    Senator Craig. Mr. Chairman, thank you very much.
    I have no further questions, Doctor. We will look forward 
to working with you.
    The Chairman. Doctor, we look forward to working with you 
and certainly we hope that personnel-wise that you are looking 
around to make sure that you have the capacity to get on with 
some of these things. I know you are going to change hats, but 
you are still going to be in the same area.
    We note that in some of the projects that we put into the 
Energy Policy Act we said let us have loan guarantees for these 
projects and it turns out it takes an awful lot of time to go 
from the legislation to getting something. We are not on a slow 
path here. We cannot have you tell us in 8 months we will have 
three people hired to do this. You know what we are going to 
do. The President is going to get close to his and more. So we 
are urging that you push.
    Thank you very much and we look forward to working with 
you.
    Next panel, please.
    Mr. Orbach. Thank you.
    The Chairman. Dr. Vest, president emeritus of MIT, you are 
a member of the commission that wrote the report, we thank you 
for your generous time. And Dr. Luis Proenza----
    Mr. Proenza. Yes, sir.
    The Chairman [continuing]. President of the University of 
Akron, chairman of the Committee on Science and Math Education 
of the Secretary of Energy Advisory Board. We are very pleased 
to have you and we understand you have a special expertise 
related to what we are talking about as it pertains to the 
national laboratories, and that has been one of your areas of 
study. We found you and we are glad we did.
    I want to just real quickly state five items. This bill 
doubles over 10 years the funding for the Office of Science in 
the Department. It improves the skills of 50,000 math and 
science teachers each year through summer institutes managed by 
the national laboratories. It creates opportunities for 50,000 
math and science teachers to pursue master's degrees in 
teaching through programs hosted by the laboratories. It brings 
national scientists into the classrooms as teachers and mentors 
for tens of thousands of classroom hours and it creates an 
innovative new agency called ARPA-E, modeled after ARPA-E, and 
that is still in a state of development.
    With that, each of you have testimony. It will be made a 
part of the record and then we will ask you, starting with you, 
Dr. Vest, to give us your oral testimony and then we will 
inquire.

STATEMENT OF CHARLES M. VEST, PRESIDENT EMERITUS, MASSACHUSETTS 
                    INSTITUTE OF TECHNOLOGY

    Mr. Vest. Thank you very much, Mr. Chairman, for the 
opportunity to be here today to discuss S. 2197, part of a 
comprehensive legislation package to help ensure America's 
future leadership and prosperity. Above all, our committee, the 
Augustine Committee, thanks all of you for your leadership in 
this regard.
    The National Academies committee outlined a bold, 
comprehensive and strategic program for our Nation. We are 
pleased that so many of our recommendations are reflected in 
the PACE legislation and that the President's American 
Competitiveness Initiative is so consistent with them. America 
today leads the world in science and technology and is the most 
innovative nation on our planet. Our strong economy builds on 
two national assets: a firm base of science and technology; and 
a free market economy.
    So why should we be worried about the future? Our committee 
believes we should be deeply worried because we have come to 
take our leadership and lifestyle for granted, and that can 
lead in only one direction, down. Our Nation must compete 
globally and simultaneously maintain our standard of living. 
This is a herculean task. It can only be achieved through 
concerted effort, the kind of concerted effort that can be 
driven by the PACE legislation.
    What does competing in a knowledge-based economy require? 
Two things. First, that we educate a workforce and leadership 
that can create and perform the well-paying jobs of the future; 
and second, that knowledge from basic research move quickly and 
efficiently to markets with products, services, and jobs. That 
is indeed what we mean by the word ``innovation.'' Our future 
economy, security, health, and quality of life require 
aggressive investment now in education and research and also 
improvement of the policy and tax environment that enable 
innovation and entrepreneurial activity to flourish.
    I believe we must see globalization as an opportunity as 
well as a challenge. But leadership and economic strength are 
not birth rights. They must be earned every day. The 
recommendations of the Augustine Committee, the National 
Innovation Initiative, and other recent reports all point in 
the same direction.
    The PACE Acts and the American Competitiveness Initiative 
address the urgent task of building a sound base for our future 
and that of our children and grandchildren. PACE is broadly 
consistent with the Augustine Committee's recommendations.
    I also would like to state that I believe that it is 
fitting that much of this legislation has been spearheaded in 
the Energy and Natural Resources Committee because energy, 
innovation, U.S. competitiveness are all intimately 
intertwined. I would cite four brief reasons for this.
    First, supplying our Nation and indeed the world with safe, 
clean, affordable, secure, and sustainable energy is a 
prerequisite to prosperity.
    Second, the Department of Energy is currently responsible 
for 40 percent of Federal investment in physical science, as 
well as about 14 percent of the Federal basic research 
investments in mathematics and computing, environmental 
sciences, and engineering.
    Third, producing and distributing electricity, heat, and 
transportation while protecting our environment arguably is our 
most urgent challenge and it certainly is one, getting back to 
some of the things Senator Craig remarked upon, it certainly is 
one that can inspire, create, and draw upon a new generation of 
scientists, engineers, and innovators.
    Fourth, if America grasps commanding leadership in clean 
and economical energy technologies there will be vast 
international markets for them. I am always astounded that that 
rarely makes it into the discussions of why we are so keen on 
these areas.
    Permit me to make a blunt observation. In recent decades, 
many of our best minds were not attracted into energy science 
and technology. We in the universities allowed energy to slip 
into the academic backwaters. Neither our energy companies nor 
our national laboratories nor the entrepreneurial community 
applied enough intellectual and financial muscle to energy. We 
have grown complacent in the face of a monumental challenge.
    I apologize for trampling on the toes of those few who have 
been dedicated to these issues, but on the whole I believe my 
observation is accurate. Today, however, the larger scientific 
and engineering communities are awakening to the challenge of 
our looming energy crisis. But concerted action and investment 
are necessary to enlist our most talented researchers and 
innovators.
    One such investment, I believe and our committee believes, 
could be ARPA-E, and in discussion I would be happy to discuss 
my perspective with this on the committee.
    Finally, I would like to briefly address the two arguments 
that have been directed by some against the recommendations of 
the Augustine Committee. First, some have stated that America's 
lead in science and engineering innovation is so great that 
there is no urgency for change. Our committee believes this 
proposition is both incorrect and dangerous. In my view there 
is a commanding urgency to these problems. Complacency is our 
enemy, not our refuge. I would refer you and your staffs to my 
written testimony, where I have fleshed this point out a little 
bit further.
    Second, some critics have stated that there is no current 
shortage of engineers and scientists and therefore no reason to 
worry about increasing their numbers. Our committee believes 
that in a knowledge age we need more, not fewer, people who can 
generate and use new knowledge. We need more future engineers, 
scientists, mathematicians, and computer scientists because 
they will create new products, services, and new jobs. Jobs 
follow the investment in science, not the other way around.
    Thank you very much for the opportunity to address PACE-
Energy from the perspective of the National Academy's report, 
``Rising Above the Gathering Storm.'' I have further comments 
in my written testimony. It is a real privilege--and I 
sincerely mean that--a real privilege to work together to 
enable our Nation to prosper in the 21st century. Thank you.
    [The prepared statement of Mr. Vest follows:]

      Prepared Statement of Charles M. Vest, President Emeritus, 
    Massachusetts Institute of Technology, and Member, Committee on 
   Prospering in the Global Economy of the 21st Century Committee on 
 Science, Engineering, and Public Policy Division on Policy and Global 
Affairs, National Academy of Sciences, National Academy of Engineering, 
                         Institute of Medicine

    Chairman Domenici, Ranking Member Bingaman, Members of the 
Committee.
    I am Charles Vest, former president of MIT. I was privileged to 
serve under Norman Augustine as a member of the National Academy of 
Sciences, National Academy of Engineering, and Institute of Medicine's 
committee on Prospering in the Global Economy of the 21st Century that 
produced the report Rising Above the Gathering Storm: Energizing and 
Employing America for a Brighter Economic Future. I also am the past 
vice chair of the Council on Competitiveness that developed the 
National Innovation Initiative, and am a member of the President's 
Council of Advisors on Science and Technology. In 2003, I chaired the 
Secretary of Energy Advisory Board's Task Force on the Future of 
Science Programs at the Department of Energy.

                              INTRODUCTION

    It is an honor to contribute to your discussion today of S. 2197, 
the Protecting America's Competitive Edge through Energy Act of 2006, 
(the PACE-Energy Act) part of a comprehensive package of legislation 
you have introduced to help ensure continued American leadership and 
prosperity in the rapidly evolving global, knowledge-based economy of 
this new century.
    Above all, on behalf of our committee, thank you for your 
leadership.
    America today leads the world in science and technology, and I 
believe that we are the most innovative nation on the planet. Our 
economy, which is strong, builds on two great national assets--a strong 
base of science and technology and a free-market economy.
    So why should we be worried about the future?
    We must be deeply worried about the future, because we have come to 
take our leadership and lifestyle for granted, and continuing to do so 
will lead in only one direction--down. Our nation must not only 
innovate and compete globally, but we must do it in such a manner that 
we can maintain our American standard of living. This is a Herculean 
task that will not be achieved without a concerted effort--the kind of 
concerted effort that can be driven by the PACE legislation.
    What does competing in a knowledge-based economy require? It 
requires that we educate a workforce and leadership that can create and 
perform the well-paying jobs of the future. It requires that new 
knowledge be continually generated and moved into the marketplace fast 
and effectively. This is what we mean by innovation. The knowledge that 
is required to produce new products, services, and jobs will in large 
measure be technical, spawned by basic research in science, mathematics 
and engineering.
    Our future economy, security, health, and quality of life depend 
upon our aggressiveness in investing now in American education and 
research, and in maintaining and enhancing a policy and tax environment 
that will allow innovation and entrepreneurial activity to flourish in 
American and in our industries' operations throughout the world. We 
must see globalization as an opportunity as well as a challenge. But 
our leadership and economic strength are not a birthright. We must earn 
them day in and day out. The recommendations of the Augustine 
Committee, the National Innovation Initiative, and indeed several other 
recent reports, including those by the President's Council of Advisors 
on Science and Technology and the Secretary of Energy Advisory Board, 
all point in the same direction. The PACE bills and the American 
Competitiveness Initiative begin the urgent task of building a sound 
base for our future and that of our children and grandchildren.
    The National Academies' recommendations outlined a bold, 
comprehensive and strategic program for the nation. Our committee is 
pleased that so many of our recommendations are reflected in the PACE 
legislation and that the President's American Competitiveness 
Initiative is so consistent with them. We further hope that our 
analysis of the issues facing the country, which draws upon and 
consolidates the work of many other dedicated groups, is helpful to you 
and you colleagues.
    The PACE legislation package is harmonious with our recommendations 
for educating a new workforce and leadership in science and 
engineering. This critical challenge spans from K-12 through doctoral 
and post-doctoral education. We are particularly pleased that the PACE 
Acts include major programs across agencies to provide scholarships for 
students who study science, engineering, or mathematics and 
concurrently earn certification and commit to teaching. We believe that 
the bills' programs to strengthen skills of teachers through masters 
programs, workshops, and training for effective Advance Placement and 
International Baccalaureate instruction are excellent. I will not dwell 
on the bulk of these programs, because they are contained in
    S. 2198 the PACE-Education Act, which will be the object of a 
subsequent hearing. However, I will note that our committee's primary 
hope is that such programs will be put in place quickly and 
effectively.
    In my view it is especially appropriate that the legislative effort 
to protect America's competitive edge be spearheaded in the Energy and 
Natural Resources Committee because energy, innovation, and U.S. 
competitiveness are intimately intertwined. The following are among the 
reasons this is true:

          1. Supplying this nation, and indeed the world, with safe, 
        clean, affordable, secure, and sustainable energy is a 
        prerequisite for prosperity, and is in large measure a 
        technological challenge.
          2. The Department of Energy currently is responsible for 40 
        percent of the federal investment in physical science as well 
        as 14 percent of the federal basic research investments in 
        mathematics and computing, environmental sciences, and 
        engineering.
          3. Producing and distributing electricity, heat, and 
        transportation while protecting our environment is arguably our 
        most urgent challenge, and it certainly is the one to inspire, 
        create, and draw upon a new generation of scientists, 
        engineers, and innovators.
          4. If America grasps commanding leadership in new, clean and 
        economical energy technologies, there will be vast new markets 
        for our energy technology industries in the rapidly developing 
        areas of the world such as China and India.

                   EDUCATION AND TEACHER ENHANCEMENT

    PACE-Energy (S. 2197) authorizes three specific roles for the 
department of Energy associated with improving STEM education in 
primary and secondary schools, and with inspiring and assisting young 
men and women to pursue college education in science and engineering.
    The first is the establishment of Summer Institutes at the DOE 
national laboratories to provide teacher training. They would emphasize 
K-8 education and would be of at least two weeks duration. This is 
certainly the type of program that we recommended in Rising Above the 
Gathering Storm. The DOE lab facilities and their scientists and 
engineers certainly could create inspirational and useful programs for 
K-8 teachers.
    The second authorizes DOE National Labs to provide assistance and 
support to STEM specialty schools and that each Lab establish a Center 
of Excellence at one public school in its geographic vicinity. This is 
precisely the kind of action that our committee encouraged.
    Third, PACE-Energy provides for the establishment of an internship 
program at the National Labs, with a $50 million annual budget 
beginning in FY2007. Our committee believes that such inquiry-based 
learning can be very effective in inspiring and educating middle school 
and high-school students. The Labs are a natural venue for such 
programs.
    I personally believe that through these three activities, the DOE 
can and should play an effective role in improving aspects of STEM 
education in our nation. I would recommend that as such programs are 
implemented, as I hope they will be, the Department will establish 
coherence of purpose and execution across the participating 
laboratories, and identify and promulgate best practices.

                                RESEARCH

    Federal support for basic research in the physical sciences and 
engineering has been essentially flat in real dollars for more than 
thirty years. During that time, the budgets for biomedical research 
have appropriately grown approximately four-fold. That four-fold 
investment will pay immense benefits to improved health as well as 
basic understanding of living systems. It has already done so, and also 
has stimulated an entire new industry of biotechnology. The levels of 
discovery and innovation in life science and medicine are astounding. 
Today there are nearly 100 biotech companies in Cambridge, 
Massachusetts, where I live. They are a direct result of the farsighted 
federal investment in biomedical research and education, as are the 
many pharmaceutical research facilities that have located there.
    But the nation faces other challenges including, first and 
foremost, energy and environment, but also the creation of new 
services, technologies, and manufacturing techniques that will enable 
us to be secure and economically vibrant in a world of knowledge-based 
economies and globalized production and markets. The Augustine 
Committee has concluded that meeting these challenges requires a 
substantially increased and sustained federal investment in long-term, 
basic research in the physical sciences, engineering, mathematics, and 
computer science. Specifically, we recommended that these budgets be 
doubled over a period of seven years.
    We therefore are very pleased that S. 2197 authorizes such a 
doubling of the budget of the DOE Office of Science by increasing it by 
10 percent annually through 2013. We are confident that such an 
investment can pay dividends of extraordinary importance to the nation.
    In our deliberations, we concluded that it would be wise to create 
200 early career research grants of $500,000 each annually, payable 
over five years. It frequently takes far too long for our bright young 
men and women to establish appropriately independent research programs. 
This is very inefficient, because it drains their time and attention 
away from the actual conduct of research and teaching during what often 
are their most creative years. S. 2197 authorizes 65 such early career 
grants per year for five years to be administered by DOE, and S. 2198 
directs similar programs in several other agencies. We applaud this.

                                 ARPA-E

    S. 2197 establishes the Advanced Research Projects Authority--
Energy (ARPA-E). This is a direct reflection of a recommendation made 
by the Augustine Committee. ARPA-E is the only major new organization 
recommended by our committee, so I would like to explain our intent.
    We intend ARPA-E to provide a new field of opportunity to the 
Department of Energy as it works in new and reinvigorated ways to 
develop new technologies to supply this nation, and indeed the world, 
with safe, clean, affordable, secure, and sustainable energy. We simply 
must supply and utilize energy and transportation in new ways that will 
not degrade our environment. If we do not do this, there will be no 
future prosperity. We must derive new knowledge and technology from 
basic science and engineering research and reduce them to practice, and 
we must start now.
    I wish to make a blunt statement that is based on my experience as 
an educator and an observer of the science and engineering communities. 
On the whole, in recent decades, many of our best minds were not 
attracted into the science and technology of energy. We in universities 
allowed energy to slip into academic backwaters, and neither our energy 
companies, nor our national laboratories, nor the entrepreneurial 
community have applied enough intellectual and financial muscle to it. 
We have grown complacent in the face of a monumental challenge. Of 
course there are counter examples, and I apologize if I am trampling on 
the toes of those few who have indeed dedicated their careers to these 
issues, but on the whole, I believe my characterization is accurate.
    Today, however, the larger scientific and engineering communities 
are awakening to challenge of our looming energy crisis. But we must 
take concerted action and make the investments necessary to enlist our 
most talented researchers and innovators to address it. Our committee, 
therefore, conceived ARPA-E as an organization reporting to the DOE 
Under Secretary for Science that can achieve four objectives:

          1. Bring a freshness, excitement, and sense of mission to 
        energy research that will attract many of our best and 
        brightest minds--those of experienced scientists and engineers, 
        and, especially, those of students and young researchers, 
        including those in the entrepreneurial world.
          2. Focus on creative, out-of-the-box, potentially 
        transformational research that industry cannot or will not 
        support.
          3. Utilize an ARPA-like organization that is flat, nimble, 
        and sparse, yet capable of setting goals and making decisions 
        that will allow it to sustain for long periods of time those 
        projects whose promise is real, and to phase out programs that 
        do not prove to be productive or as promising as anticipated.
          4. Create a new tool to bridge the troubling gaps between 
        basic energy research, development, and industrial innovation. 
        It can serve as a model for how to improve science and 
        technology transfer in other areas that are essential to our 
        future prosperity.

    Our committee did not believe it appropriate for us to specify the 
organization and mission of ARPA-E in great detail. We believe that 
must be worked out by the Secretary of Energy and the Under Secretary 
for Science in rapid, but intense, consultation with experts from the 
scientific and engineering communities. Defense visionaries who 
realized that the military had to reach out to new communities for the 
technologies that would be required to counter the rapidly changing 
threats of the post Sputnik era established the original ARPA in the 
DOD. It was enormously successful. We believe that ARPA will provide 
the right general framework on which to design ARPA-E. It is a proven 
model.

                            CLOSING COMMENTS

    I would like to briefly address two arguments that have been 
directed by some against the recommendations of the Augustine 
Committee.
    First, some have stated that America's current lead in science, 
engineering, and innovation is so great that there is no urgency to 
addressing these matters. Our committee believes that this proposition 
is both incorrect and dangerous.
    We are indeed on the pinnacle of science and technology R&D, but 
almost every trend is moving in the wrong direction. In just the last 
few years the U.S. has become a net importer of high-technology 
products, has invested more new money in foreign stock funds than in 
domestic portfolios, has seen its share of leading-edge semiconductor 
manufacturing cut in half, has dropped to 12th in the world in the 
number of broadband connections per 100 inhabitants, has dropped from 
number 1 to number 5 in Internet use and infrastructure, has had 
basically flat investment in physical science and engineering research, 
has less than one third of its 4th and 8th grade students performing 
proficiently in mathematics, has its 15-year olds ranking 24th out of 
40 countries in assessments of applying mathematical principles to 
practical problems, has two thirds of its children learning science and 
mathematics from teachers who neither majored nor were certified in the 
subjects, and has only 15 percent of its university students studying 
natural science or engineering versus 38 percent in South Korea and 50 
percent in China.
    In my view there is a commanding urgency to these problems. 
Complacency is our enemy, not our refuge.
    Second, some critics have stated that there is no current shortage 
of engineers and scientists, so there no reason to increase their 
numbers. Our committee believes that in a knowledge age we need more, 
not fewer, people who can generate and use new knowledge.
    The need for more future engineers, scientists, mathematicians, and 
computer scientists is because these men and women will be the 
innovators who create new products, services, and jobs. Innovation is 
the key to productivity, which in turn is the key to a strong economy. 
Supplying and distributing energy, feeding the planet, building new 
industries around bio-based materials, continuing trends toward 
sophisticated service-based economies, keeping us secure, advancing 
medicine, developing new ways of learning, and responding to pandemics 
all require a technically competent workforce and scientifically astute 
leaders in business and government. Even today, over half of the CEOs 
of Fortune 500 companies have engineering backgrounds, and engineers 
and scientists dominantly create the newer entrepreneurial companies. 
The financial services industry is based on mathematics and information 
technology. Shipping companies and even retail businesses find the 
profit margins necessary for survival only through application of 
complex logistical science.
    The argument that we have plenty of engineers and scientists is 
based on looking in the rearview mirror. The more people with sound 
engineering and scientific knowledge, the more connections among them, 
and the stronger the knowledge generation of long-term basic research 
to nourish them, the better will be our chances of prospering in the 
21st century.
    Chairman Domenici, Ranking Member Bingaman, and Members of the 
Committee, thank you for the opportunity to address PACE-Energy from 
the perspective of the National Academies report Rising Above the 
Gathering Storm. It is a privilege to work together to enable our 
nation to prosper in the 21st century.
    I would be glad to respond to any questions.

    The Chairman. Thank you very much.
    Doctor.

           STATEMENT OF LUIS M. PROENZA, PRESIDENT, 
                      UNIVERSITY OF AKRON

    Mr. Proenza. Mr. Chairman, Ranking Member Bingaman, members 
of the committee, thank you for your invitation and I echo Dr. 
Vest's thank-you to the committee for your leadership in 
considering the vitally important matters embodied in this 
legislation. I am here today indeed in my role as chairman of 
the Science and Mathematics Education Task Force, a 
subcommittee of the Secretary of Energy Advisory Board, because 
the work of our task force is not yet complete. I hope you will 
consider my remarks as my own, but I assure you that my 
comments reflect the discussions that we have had, and we will 
certainly be sharing the full report of the committee as soon 
as it is completed.
    Much of what we have learned about competitiveness and 
innovation in recent years certainly speaks to the value of 
leveraging resources and to ensuring that the various 
components of our national innovation ecosystem are optimally 
linked, coordinated, and enhanced, a theme that runs through 
the PACE legislation. I am pleased that you have asked me to 
address specifically how we might leverage Department of Energy 
resources. That is precisely what our task force has been 
addressing.
    The national laboratories, as you have indicated, represent 
exceptional scientific and engineering facilities and talent, 
17 geographically distributed laboratories of unparalleled 
strength and importance, particularly in the physical sciences. 
Such major resources are assets that can and should be 
leveraged to help strengthen STEM education and leveraging is 
imperative because the labs must balance between their obvious 
and synergistic capacity to support STEM education and their 
need to maintain a mission focus. This means we cannot leverage 
simply by increasing access. We must create leverage by 
multiplying the impact of those who come to the labs, 
particularly teachers.
    As a geographically distributed network of resources, the 
labs already have demonstrated the capacity to provide teachers 
with authentic experiences in the scientific enterprise, 
thereby transforming science teachers into teaching scientists. 
The challenge is to leverage these unique resources, the 
laboratories, as forcefully as possible through an intensive 
set of research experiences that yield teaching scientists 
capable of engaging students in STEM disciplines.
    We have found programs throughout the laboratory systems 
that do this, programs that lead to genuine transformations in 
teachers' knowledge and enthusiasm for science. Moreover, our 
findings suggest that it will be during the adolescent years 
when students present the most significant needs as well as 
opportunities, and that is where we would focus the leveraging 
opportunity.
    Leverage is not only essential in this context of the labs' 
mission, but also provides a useful metaphor. The leveraging 
force is that of our national laboratories. The fulcrum point 
at which this leverage is exerted is the professional 
development of teaching scientists through intensive 
transformative laboratory research experience, and in turn the 
effect is multiplied upon the millions of students in our 
Nation's middle schools, that critical stage during which 
students develop and sustain interest in science and 
mathematics and when teaching scientists thus can have the 
greatest impact--precisely the same idea behind the ``Gathering 
Storm'' report, but adding to it the power of the national 
laboratories.
    We also looked in some detail at the considerable variety 
of STEM education programs across most of the 13 Federal 
agencies that support science and engineering research, and we 
are pleased to note in your legislation that you have certainly 
recognized the important coordinating role that is necessary to 
be accomplished.
    Finally, the leveraging opportunities associated with the 
national laboratories do extend beyond their ability to 
transform teachers. The labs also are home to some of our 
Nation's most advanced computational resources, which are 
capable of creating powerful simulation environments. 
Computational tools have become essential to research, made it 
easier to bring concepts to the marketplace quickly, and 
greatly increased productivity in both manufacturing and 
service industries throughout the economy. In short, these 
tools are key ingredients in American competitiveness.
    But it is important to note that the emphasis of these 
tools also could be to increase the productivity of the process 
of education itself by making concepts in science and 
mathematics more compelling and more accessible for a wide 
range of students. These powerful simulation capabilities thus 
hold another leveraging opportunity for the Department of 
Energy, namely that of creating the sort of exciting and 
captivating interactive features that make possible the 
delivery of exploration and discovery-based learning tools.
    Now STEM stimulation tools can be created at a price that 
becomes affordable to the large number of students and teachers 
who cannot otherwise participate directly in experiences of the 
laboratories and, moreover, engaging simulations can connect 
what would otherwise be abstract concepts in the physical 
sciences, engineering, and mathematics to simulations of real 
world applications.
    Capturing this potential is the subject of another piece of 
legislation that I hope you will pay some attention to, S. 
1023, the Digital Opportunity Investment Trust, and more is 
noted in my written testimony. But in short, it is the 
opportunity, Mr. Chairman and members of the committee, to 
support research to create innovation in the process of 
education itself and a careful assessment of what works and 
what does not work by leveraging the resources of the 
Department of Energy. Quite simply, we must enhance the 
effectiveness and productivity of our systems of education and 
training.
    In summary, Mr. Chairman, the work of our task force 
undoubtedly supports the PACE legislation and we look forward 
to sharing a copy of our final report. Thank you for your 
attention and thank you for the able leadership that you are 
providing in this vitally important area. Thank you.
    [The prepared statement of Mr. Proenza follows:]

  Prepared Statement of Dr. Luis M. Proenza, President, University of 
                                 Akron

    Mr. Chairman, Members of the Committee, thank you for your 
invitation to provide testimony in support of this vitally important 
legislation.
    I am Luis Proenza, President of The University of Akron. I also am 
privileged to serve on the President's Council of Advisors on Science 
and Technology (PCAST) and on the executive committee of the Council on 
Competitiveness--bodies that have made recommendations that are 
directly relevant to the matters under your consideration. Many of you 
already are familiar with these recommendations, which are reflected in 
the President's American Competitiveness Initiative and incorporated in 
other pending legislation, such as the Ensign--Lieberman National 
Innovation Act of 2005.
    I expect you have asked me here today because of my role as 
chairman of the Science and Mathematics Education Task Force (SMETF), 
which is a subcommittee of the Secretary of Energy Advisory Board 
(SEAB). However, in the spirit of full disclosure, I must tell you 
that, because the work of our task force is still in progress, the 
remarks I will make today must be treated strictly as my own. My 
comments will naturally reflect much of the work we have done to date 
and, of course, we will be pleased to share the final report with this 
committee as soon as it is completed. From my review of the PACE 
language, I might add that the work of SMETF appears to be most closely 
related to sections 3171, 3175, 3181 and 3195 of PACE-Energy and 
sections 161, 211 and 231 of PACE-Education.
    Although the national laboratories conduct a substantial proportion 
of the nation's basic research in the physical sciences and 
engineering, as well as a healthy mix of other basic and applied 
sciences (e.g., biological and environmental sciences), the Department 
of Energy's role in the scientific leadership of the nation is 
generally underappreciated. To carry out its mission, DOE requires 
substantial manpower resources, which is one reason why the 
Department's involvement in the education pipeline must be understood 
better, supported adequately and leveraged. I am pleased that DOE's 
vital role in STEM education was given a clear legislative mandate in 
section 1102 of the recently passed Energy Policy Act of 2005 and that 
the Department's Office of Science, under Assistant Secretary Ray 
Orbach, was tasked to begin implementation of this section. I also note 
that former Secretary Abrams, who appointed SMETF, and Secretary 
Bodman, have expressed strong interest in ensuring the Department's 
participation in enhancing our nation's STEM education.
    Much of what we have learned about competitiveness and innovation 
in recent years certainly speaks to the value of leveraging resources 
and to ensuring that the various components of our national innovation 
ecosystem are optimally linked, coordinated and enhanced. Thus, I am 
pleased that you have asked me to specifically focus on how we ``would 
leverage Department of Energy resources, including personnel and 
equipment at the National Laboratories, to improve mathematics, 
science, and engineering education at all levels''. That is precisely 
the task that SMETF has had under review during the last 14 months.
    The National Laboratories represent exceptional scientific and 
engineering facilities and talent--17 geographically distributed 
laboratories of unparalleled strength and importance, particularly for 
the physical sciences and engineering, but also for a substantial mix 
of other basic and applied sciences (e.g., biological and environmental 
sciences). Such major resources are assets that can and should be 
accessed in support of strengthening STEM education. Leveraging is 
imperative because the labs must balance between their obvious and 
synergistic capacity to support STEM education and their need to 
maintain their mission focus. And this means we cannot leverage by 
simply increasing access. Rather, we must create leverage by 
multiplying the impact of those who come to the labs--by enhancing the 
capacity of STEM teachers to impact thousands upon thousands of 
students. By supporting the professional development of teachers, the 
labs can, as they have for many years, substantially enhance the 
educational competencies of teachers in science, mathematics, 
engineering, and technology. These professional development experiences 
enable teachers. to become conveyors of STEM expertise. And, having 
selected teachers as the means for exerting leverage, we also should 
determine where such teachers can have the most impact. Ample evidence 
suggests that the greatest impact that teachers can have is on middle 
school students, because that is the time when student performance and 
interest begins to drop and when students become especially vulnerable 
to the lack of strong educational experiences.
    The DOE laboratories are a geographically distributed network of 
resources with great potential to provide teachers with authentic 
experiences in the scientific enterprise--thereby transforming science 
teachers into teaching scientists. The challenge is to leverage these 
unique resources--the national laboratories--as forcefully as possible 
through an intensive set of research experiences that yield teaching 
scientists capable of engaging students in STEM disciplines. We have 
found excellent STEM educational programs throughout the laboratory 
system, programs that lead to genuine transformations in teachers' 
knowledge and enthusiasm for science. Moreover, our findings suggest 
that it is during adolescence when students present the most 
significant needs as well as opportunities. Thus, we will likely 
suggest the creation of a Teaching Scientist Professional Development 
Program that reaches cohorts of middle school teachers drawn from the 
geographical areas served by each laboratory--a hub-and-spoke strategy. 
The basic design elements build on DOE's current Laboratory Science 
Teacher Professional Development Program (LSTPD) and entail intensive 
four- to eight-week summer internships spanning three years for each 
cohort. The plan also would call for Department-wide coordination of 
essential program features already in use, while also making 
appropriate allowances for local adaptations suitable to each 
laboratory. Continuous formative assessments and formal evaluations, 
drawn from the LSTPD experience, would guide further refinement of the 
program and provide ongoing evidence of effectiveness.
    Leverage is not only essential in the context of the labs' mission, 
but also provides a useful metaphor. The leveraging force is that of 
our national laboratories. The fulcrum point at which this leverage is 
exerted is the professional development of ``teaching scientists'' 
through intensive, transformative laboratory research experience. In 
turn, the effect is multiplied upon the millions of students in our 
nation's middle schools, the critical stage during which students 
develop and sustain interest in science and mathematics, and when 
``teaching scientists'' thus can have the greatest impact.
    Across many, if not all, of our federal agencies there are other 
important STEM education initiatives. During the work of the task 
force, we requested and received several presentations, which revealed 
considerable variety of STEM educational programs across agencies. 
Among them, we saw spectacular examples of curriculum development, but 
not every agency or organization is well placed to take on the task of 
curriculum development. Nor are many school systems or individual 
teachers prepared to optimally integrate these materials into the 
classroom. We also saw opportunities for new endeavors that would be 
useful in their own right, while also supporting coordination. For 
example, the National Science Education Resources Center at the 
Smithsonian is in the early stages of developing a Web site of 
resources for STEM education, which might be the basis for more 
substantive interagency efforts. Finally, while many STEM education 
resources are readily accessible through the Internet, it is less clear 
that these are having measurable impact on the condition of STEM 
education in America.
    My colleagues and I have discussed the leadership role that is 
needed among federal agencies in leveraging major scientific and 
engineering resources, such as the national laboratories, for STEM 
education and we believe that DOE is well poised in this regard. The 
Department of Energy can and should take on a leadership role in the 
development of educational efforts in cooperation with other agencies. 
In addition, DOE should encourage STEM education partnerships among 
agencies, businesses, universities, and national organizations. Of 
course, DOE's ability to assume this role clearly depends on 
interagency discussions and the development of shared resources, both 
virtual and programmatic.
    The leveraging opportunities associated with the national 
laboratories extend beyond their ability to bring teachers or students 
into contact with individual scientists or research programs at each of 
the 17 facilities. The laboratories, for example, also are home to some 
of our nation's most advanced computational resources, which are 
capable of creating powerful simulation environments. These tools are 
key ingredients in American competitiveness. Computational tools have 
become essential to research, made it easier to bring concepts to the 
marketplace quickly, and greatly increased productivity in both 
manufacturing and service industries throughout the economy. In work we 
have done through the Council on Competitiveness' High-Performance 
Computing Initiative, I personally have seen how some of these 
facilities, such as those at the Sandia National Laboratory, can assist 
industry in performing complex simulations to support improved 
manufacturing competitiveness.
    These tools can also increase the productivity of the process of 
education and make concepts in science and mathematics more compelling 
and more accessible for a wide range of students. All of us are now 
familiar with how movie animation and video games have created 
compelling experiences built around simulated landscapes, cities and 
complex processes brought to life through high-performance computing. 
Modern personal computers and video game consoles now deliver computing 
power comparable to that of devices called supercomputers just a few 
years ago.
    These powerful simulation capabilities, thus, hold another 
leveraging opportunity for DOE--namely, that of creating the sort of 
exciting and captivating interactive features that make possible the 
delivery of exploration and discovery-based learning tools long 
recommended by educational scientists. For example, agencies such as 
NASA and NOAA have taught students about space or deep ocean 
exploration through their Challenger and Jason programs. Now, STEM 
simulation tools can be created at a price that becomes affordable to 
the large number of students and teachers who cannot otherwise 
participate directly in experiences at the laboratories. Engaging 
simulations can connect what would otherwise be abstract concepts in 
the physical sciences, engineering and mathematics to simulations of 
real-world applications. DOE is in an excellent position to facilitate 
this by leveraging its subject matter expertise and strong record in 
computation. Even with comparatively simple instructional simulation 
tools, it should be possible to demonstrate a 30% reduction in learning 
time.
    Tools that can increase the productivity of our educational system 
and tailor learning to the unique interests and needs of a diverse 
student body are essential if America is to produce the talent needed 
to ensure American competitiveness. But capturing the potential of 
simulations and other information technologies will require significant 
and sustained investment in research, demonstration and evaluation of 
such tools. A strategy for achieving this is contained in another piece 
of pending legislation: S. 1023, the Digital Opportunity Investment 
Trust (DO IT). Although the PACE legislation you are considering 
proposes much-needed strategic advancements in STEM education and 
support for the physical sciences, those investments--in my judgment--
would be greatly enhanced if we find a way to fill a large hole in our 
national research portfolio, namely in the support of research into 
innovation in the process of education itself and a careful assessment 
of what works and what doesn't work. That is the purpose of S. 1023, DO 
IT.
    During the course of our work, SMETF heard of how little of what 
has been shown to work is actually in practice and how much of what is 
being done is lacking in assessment of its effectiveness. As a nation, 
we currently do not support much in the way of research into 
educational and training effectiveness, and yet we are now in a global 
labor market that puts a premium on information-technology-based jobs 
where our systems of education and training must be the bedrock, the 
very infrastructure, of our economic competitiveness. The fact that 
modern computers offer the potential to implement sophisticated 
approaches to instruction in STEM has both changed the rules and raised 
the penalty for inaction.
    Quite simply, we must enhance the effectiveness and productivity of 
our systems of education and training and ensure that they can benefit 
from the same revolutionary broadband technologies that have 
transformed our communications, defense, commercial and entertainment 
sectors. To achieve this, I urge your serious consideration and support 
of the Digital Opportunity Investment Trust (DO IT) as an integral part 
of the PACE Act's strategy for strengthening American innovation.
    As a member of the Digital Promise Coalition's Leadership Council, 
I have supported the DO IT legislation, S.1023 introduced by Senators 
Dodd, Snowe, Durbin and Burns. That legislation was based on a 
comprehensive research and development learning roadmap that was 
submitted to Congress two years ago. DO IT would be a form of venture 
capital fund to support the research necessary to create new teaching 
and learning tools using advanced technologies such as highly 
interactive virtual reality, simulation, embedded intelligence and one-
on-one tutoring. It is time to harness the power of these tools for 
teaching and learning, especially in abstract areas of mathematics and 
science. We know that an integrated use of advanced technologies can 
make learning faster, more efficient, and allow a higher proportion of 
students to reach greater levels of competence. Our competitor nations 
are already far ahead of us in this area of research and in digitizing 
high-quality educational content for new educational technology 
applications. I feel strongly that no national strategy for 
reinvigorating our systems of research and innovation would be complete 
without something like the DO IT component.
    In summary, Mr. Chairman, the work of SMETF will undoubtedly 
support the PACE legislation and we look forward to sharing a copy of 
our final report.
    In closing, allow me to acknowledge my colleagues in SMETF. In 
particular, I want to thank Dr. Robert Calfee, vice chair of the task 
force, for his dedicated and insightful comments as well as for his 
many substantive contributions. We are most grateful for all the 
dedicated and talented staff in DOE and other agencies that took time 
to inform us of all the ongoing educational activities within the 
agencies and had the patience to answer our many questions and help us 
to understand the feasibility of the proposals we are considering. In 
particular, we wish to acknowledge the support of John Giordano and 
Peter Faletra.
    Thank you for your attention; this concludes my testimony.

    Senator Craig. Thank you very much. Your testimony is 
fascinating.
    Let us turn now to--Senator Domenici is back. I was turning 
to Senator Bingaman. He has to leave at noon. So we will yield 
to you, Senator, for questions.
    Senator Bingaman. Thank you very much.
    Thank you both for being here and thank you for your good 
work, Dr. Vest. Thank you particularly for your work as a 
commissioner.
    Let me ask you about this issue of ARPA-E. According to 
``Inside Energy,'' I think yesterday or the day before, they 
had an article where Secretary Bodman was quoted as saying that 
they would look at this issue, but he was inclined himself to 
build along the lines of Incutel rather than an ARPA-E model; 
Incutel being the private, as I understand it, the private fund 
that the CIA has established for promoting development of 
technologies useful for the intelligence community, ARPA-E, of 
course, being much more modeled after DARPA. There is a good 
quote in here, I thought, from Norm Augustine saying that ``The 
DARPA model would be more closely matched to DOE's needs 
because in our view''--speaking I guess explaining the 
commission's position--``in our view the opportunity to gain 
new and create new technologies through contracts and through 
the current DOE structure, rather than venture investments, is 
greater.''
    Do you have a point of view you could express, either for 
yourself or for the commission, on this question?
    Mr. Vest. Senator Bingaman, I would like to address at 
least parts of what you have raised. I will try to be clear as 
to my ideas and where it is the committee's. First of all, this 
is all about people and ideas and bringing new communities of 
scientists and engineers and innovators to the table of energy.
    Incutel, as you have indicated, at least in shorthand 
notation is a venture capital operation for the intelligence 
community and a very effective one. Its primary role is to turn 
the venture capital and entrepreneurial small companies loose 
on developing new technologies that are generically of interest 
to the intelligence community, and it is very effective.
    That is part of what needs to be happening in the 
Department of Energy today, in our committee's view. It 
certainly is not all of it and maybe is not even the core of 
it. We saw four reasons to recommend this ARPA structure. 
First--and again I refer back to Senator Craig--we think that 
the establishment and effective work of ARPA-E could bring a 
freshness and excitement and a sense of mission to certain 
areas of energy research that would go a long way to attracting 
many of the best and brightest minds, both mature scientists 
but, even more importantly, students and young researchers, and 
including those in the entrepreneurial world, to energy 
problems.
    Second, that it would focus on creating out-of-the-box 
potentially transformational research that industry cannot or 
will not support.
    Third, that the reason for utilizing an ARPA-like 
organization is that it is flat, it is nimble, it is sparse, 
yet it is capable of making decisions that allow it to sustain 
for long periods of time those projects whose promise is real, 
but also to phaseout programs that in their early stages prove 
not to be as productive or as promising as anticipated.
    And fourth, to create a new tool within the Department of 
Energy for use by the Under Secretary for Science to help 
bridge some of the troubling gaps that develop between basic 
energy research, development, and industrial innovation. We 
think it can serve as a model for science and technology 
transfer.
    So our committee actually discussed the idea of an Incutel-
like model. We still feel there might be room for that. It 
might in fact be a component within ARPA-E. But we did not 
believe it was appropriate for us, with our limited time, to 
specify the organization of ARPA-E in great detail. That really 
needs to be up to the Secretary and the Under Secretary for 
Science.
    I know I am running on just a little long, but I went back 
over the last couple of days and read about--read further about 
the origin of ARPA in the Department of Defense in 1958, in 
response to Sputnik and all the things that were starting to be 
on the horizon, ICBMs and so forth. It has the following 
characteristics: a risk-taking culture, working in high-risk, 
high-payoff areas; independent from the military service R&D 
organizations; does not maintain its own laboratories--I want 
to be very clear about this. This is an administrative 
structure--idea-driven, outcome-oriented; funds researchers 
based on their quality, rather than in the defense industry, 
elsewhere in the private sector, or in universities; and is an 
honest broker among competing approaches.
    It is not a single model. It has morphed and changed with 
time. So it is this nimble structure, something new, something 
exciting, bringing new talents into the energy problem, that we 
believe and I personally believe could be effectively done by 
an organization of this type. I would put the larger emphasis 
on that and bringing new people and ideas in and let the 
Secretary and others explore whether or not an Incutel-like 
structure should be part of it.
    Senator Bingaman. Thank you very much.
    The Chairman. Senator Bingaman, thank you for the question. 
Some of us will have to follow up on that issue and see if we 
can understand it better.
    Mr. Vest. I should point out that our hero, Norm Augustine, 
was also the person who established ARPA--Incutel, excuse me, 
Incutel.
    Senator Craig. Is that called truth in--full disclosure, I 
guess.
    Mr. Vest. It is truth in expertise, if we may call it that.
    The Chairman. I just want to put this one marker down on 
the entire discussion. The issue of moving science and 
scientific research from the public laboratories to the private 
sector is an enigma. Everybody loves it, everybody views it and 
says what a great thing. And then you look at it and with each 
decade you find that you made only a little incremental gain in 
actually being able to get it done. I think you understand 
that. It is because of all the rules of public property, 
disclosure, patents, exclusivity. Every time you have capital 
venture companies trying to fund breakout activities, they run 
into the same problem.
    We are making headway, but I would think before we are 
finished you ought to tell us whether--what is the difference 
in application in these two in terms of maybe the ease with 
which you make the transition from the R&D to something that 
the private sector can use. Do you understand my question?
    Mr. Vest. The difference between an ARPA model and Incutel?
    The Chairman. Yes. I would think the latter is more like 
what we are doing today.
    Mr. Vest. In the first order, the directions are different, 
Senator, because Incutel basically turns the venture capital 
community loose on technologies that they want to bring into 
the Department of Defense--into the intelligence community, and 
ARPA has more the function of seeing that the right ideas are 
generated to begin with. So they are somewhat complementary.
    The Chairman. Okay, we will take a look.
    Let me move down to the Senators, if you would like. Who is 
next here, Senator Craig or Senator Alexander? Larry, go ahead.
    Senator Craig. I will be very brief, gentlemen. Thank you 
again and I will spend time with your testimony. Both of you 
have challenged us and I will be anxious to see, doctor, your 
work, where it takes us as it relates to DOE and our 
capabilities there. We see these phenomenal resources and 
wonder how we energize them.
    But Dr. Vest, you said something that is so profoundly 
true. I think of the phenomenal--I know of no other way of 
saying it because we have all benefited from it--the phenomenal 
wealth that the IT economy has brought to our country, that 
started way back when as we began to energize and focus and 
invest, and it morphed and morphed and morphed itself. It 
challenged bright young people and we became a world leader, 
and then it moved to the rest of the world and we took our 
technologies to them.
    Two years ago this past December, I was sitting on a 
platform with the head of the environmental agency for mainland 
China at the national--or the World Climate Change Conference 
in Buenos Aeres, and he turned to me after his comments and 
said: We need to build 100 nuclear reactors. And oh, by the 
way, he kind of smiled, would you come and build them? What he 
was saying to me was that, because we were then at the edge of 
announcing to the world that we are going to get back into the 
nuclear game--we were almost there, the chairman was almost 
there, we were crafting the legislation, we felt that we had 
the wind to our back, that the world was coming with us, at 
least our immediate political world.
    But it was fascinating to me because it registered on me 
once again how anxious the world is for us to lead because they 
know that when we do everything is transparent, largely 
speaking, and that it is transferable to them in many 
instances.
    I think what you say is very true, that we ought not forget 
the marketplace, we ought not forget that what we do is the 
next wealth cycle, if you will, of our country, not just for us 
but potentially for the rest of the world.
    I was visiting with Senator Domenici during some of the 
testimony, saying one of the great drains of our country today 
is that our wealth is moving abroad to acquire energy in just 
unbelievable amounts. Oh, if only half of it could stay and be 
invested in the types of things we are talking about.
    Anyway, thank you both very, very much. That is certainly 
more of a comment than a question, but I do believe we 
oftentimes forget that what we do is the market, it is the 
economy, it is not just inside the laboratory. It challenges 
the great minds to produce something for a marketplace that is 
the engine of this great country.
    The Chairman. Thank you, Senator.
    Senator Bingaman. Thank you.
    The Chairman. Senator, I should have gone to you a little 
sooner. I am sorry. Would you like to proceed?

        STATEMENT OF HON. ROBERT MENENDEZ, U.S. SENATOR 
                        FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman. I appreciate 
your courtesy.
    Let me say I am really impressed by the legislation that 
Senator Bingaman and Senator Alexander put together here, Mr. 
Chairman, and your calling it up so early. I am a strong 
supporter and co-sponsor of it. This is really in my mind about 
the future of our country, about innovation and technology in a 
world which has been transformed by technology. The boundaries 
of mankind have been transformed, where human capital can be 
located just about anywhere in the world and where a blueprint, 
a radiologist's report, an engineer's report, a tax return, can 
be accomplished just about anywhere in the world.
    So having America be able to be at the very apex of that 
curve of intellect and the collective human capital and 
intellect that we have as a Nation is going to be our greatest 
opportunity and our greatest challenge as well. So I really 
appreciate what it is that we are doing through purposes of the 
legislation and I look forward to supporting it on the road 
ahead.
    [The prepared statement of Senator Menendez follows:]

       Prepared Statement of Hon. Robert Menendez, U.S. Senator 
                            From New Jersey

    Thank you very much, Mr. Chairman, and thank you for moving so 
quickly in holding a hearing on this very important piece of 
legislation that I strongly support, and that I am proud to be an 
original cosponsor of. I would like to commend Senators Bingaman and 
Alexander of this committee, along with my former colleagues in the 
House, Representatives Boehlert and Gordon, for asking the National 
Academies to look at this issue of American competitiveness in science, 
technology, and innovation, and I hope that all three bills to come out 
of this report will get to the Floor of the Senate in short order.
    As the subtitle of the National Academies report makes clear, 
investing in education and innovation is about our economic future. 
Today's young people will be facing a new world when they enter the 
workforce--a world that is globally integrated and where technology has 
transformed the boundaries of human capital. Our tax forms, blueprints, 
and x-rays can all be analyzed halfway around the world. The greatest 
asset we have in this country is our collective intellect, and the 
nation's competitive future will depend on us nurturing the intellect 
of the next generation of Americans.
    This legislation is about more than our ability to compete in the 
global marketplace. It is also about the quality of our lives. It is 
about finding new cures for diseases such as cancer or alzheimers so 
that Americans can live longer, more fruitful lives. It is about 
discovering new technologies for generating energy that do less harm to 
our environment. And it is about the next technological breakthrough 
that makes us wonder how we ever lived our lives without it.
    This bill, in conjunction with the two other bills that enact the 
recommendations of Rising Above the Gathering Storm, will help this 
country maintain its position as the world leader in research and 
development, high technology, and innovation. Already there are signs 
that our preeminence in this field may be slipping. As the National 
Science Foundation points out in Science and Engineering Indicators: 
2004, the United States is losing ground to the rest of the world in 
the number of published articles in scientific journals, the number of 
patents, the share of global exports for high-technology products, and 
the percent of college graduates with natural science or engineering 
degrees. We need to turn this around, and we can do that by making sure 
our children have the proper tools, and the proper support, to succeed 
in science and technology.
    I am concerned, however, that these bills will not properly equip 
the entire next generation of Americans. Currently, there is a distinct 
shortage of minorities in science and engineering jobs. According to 
the National Science Foundation, only 7% of our scientists and 
engineers are Hispanic, African-American, or Native-American, despite 
the fact that they make up 24% of the total population. A minority 
scientist is also far less likely to achieve a post-graduate degree. By 
2020, one-quarter of the nation's schoolchildren will be Hispanic, and 
another 14% will be African-American. That's 40% of our precious human 
capital, and we can not neglect that tremendous resource when we talk 
about improving our competitiveness for the future. No business could 
afford to leave 40% of its capital sitting idle, and neither can the 
United States. I look forward to working with my colleagues to make 
sure that we don't leave this enormous cohort behind as we strive to 
ensure America's scientific and technological future.
    As for the bill before this committee, I am particularly excited 
about the way it would forge closer links between the Energy 
Department's National Laboratories and local students and teachers. We 
have one of these labs in New Jersey, the Princeton Plasma Physics 
Laboratory, and the world-class research that it performs is already a 
tremendous asset for New Jersey, the United States, and the world as a 
whole. But if we can leverage the strengths of that laboratory into 
better learning experiences for our students and training opportunities 
for our teachers, both the local community and the PPPL itself benefit.
    One of the overriding themes through this bill, and the other two 
PACE bills, is that we need to make a major national commitment to 
research and development, and I hope we can follow through on that. The 
President has also talked a lot recently about making a serious 
commitment to innovation through the American Competitiveness 
Initiative (ACI), and I think he should be commended for making such a 
strong statement of support. However, I am disappointed that his budget 
proposes to eliminate, again, the Advanced Technology Program (ATP). 
New Jersey is the 5th largest recipient of ATP funds in the nation, 
obtaining 36 grants worth $110 million over the life of the program. 
The ATP makes competitive matching grants to businesses that do high-
risk, high-reward research and development, which is exactly what this 
Administration has been trumpeting as its priority. The ATP has 
provided $18 billion in economic growth on $2.1 billion in investments 
and has more than paid for itself since its inception. I believe this 
program does a tremendous job in stimulating research by the private 
sector that otherwise might never be performed, and I hope we will once 
again be able to reverse this ill conceived plan to kill the ATP.

    Senator Menendez. I do have one line of questions. Dr. 
Proenza, you said in your comments about building mathematics 
and science in the elementary and secondary level as we create 
building blocks of learning and enthusiasm for math and 
sciences as we move on to higher education. I just wonder when 
I see that over the next decade and a half 25 percent of all 
the Nation's school children will be Americans of Hispanic 
descent, added to between 15 and 20 percent of African 
Americans, that is anywhere between 40 and 45 percent of human 
capital in this country, in terms of the educational future, 
which I consider the economic future of the country. How do we, 
within this broad context that we are trying to pursue, 
significantly try to engage that part of the student population 
to be enthused and engaged when considering some of the 
challenges they face in science and mathematics?
    There is no corporation in America could afford to have 40 
or 45 percent of its capital sitting idle or not fully 
productive, and I am concerned when we are talking about this, 
our legitimate pursuits in math and science to continue to be 
the leader of the world and to be at that apex of human 
intellect in some of the most significant aspects of our lives, 
that we are going to leave a lot of that human capital behind. 
I wonder if you have any thoughts about that, or Dr. Vest as 
well?
    Mr. Proenza. Senator, that's a very important point that of 
course faces the Nation as a whole. As a person of Hispanic 
background that came to this country at a very early age, I did 
notice that we tend to expect less of our children in America 
than the educational systems of other countries. That is an 
element. Certainly we have to build into our society the kind 
of anticipation and expectation of success that some societies 
have been able to do quite widely and start early. Jim 
Hechtman's work at Chicago certainly indicates that the 
greatest return on investment will be seen by looking at the 
early childhood years. The work that we have done in our task 
force indicates that our young people in America tend to stay 
even with those in other parts of the world up into the middle 
school years. That is where we begin to lose them, and that is 
why we emphasized that that is where we have an opportunity to 
leverage our resources optimally early on.
    Obviously, we want to see this continue and we would 
certainly be looking to recommendations along those lines. 
Expecting more, starting early, and ensuring that we do not 
lose them in those vital years would be three suggestions that 
I would make, Senator. Thank you for your question.
    Mr. Vest. Let me add to that, and let me begin by saying 
this is purely a personal statement, not the statement 
representing the committee.
    Former Governor Jim Hunt runs an institute that studies 
higher education policy. One of the recent reports had the 
following fact: if you are an adult, white American like 
myself, you have two times the probability of having a 
bachelor's degree as your African American colleague and fellow 
citizen and almost three times the probability of a Hispanic 
citizen.
    This cannot go on. One of the points he makes is that if 
you then add to that the correlation between earning power and 
income and having a bachelor's degree and look at the 
demographic projections, you will come to the conclusion that 
the average income in America is going to go down if we do not 
resolve this problem.
    Now, I am an engineer, not a politician, so I will be 
pretty straightforward. When you see a problem you are supposed 
to analyze it and fix it. I think the only way we are going to 
make the kind of rapid progress in drawing on all our citizens 
in this country the way we have to is to be explicit about it. 
If I had my way, these summer institutes and the outreach 
programs of American colleges and universities and so forth 
would have a very explicit component of their mission to 
address the specific needs of our minority citizens.
    I think we have to roll up our sleeves and work hard at 
this, but, having said that, at the end of the day having 
inspirational activities, learning opportunities, and jobs is 
the same for everybody no matter what your background is, and 
that is the starting point.
    Senator Menendez. I appreciate that. I find it interesting 
that as we look at part of the legislation, which I support, it 
takes away the numerical limitation on aliens to come to be 
part of our research efforts here, that domestically we have a 
very large population that hopefully we can enhance in the math 
and sciences, that we can produce from our own citizenry the 
human capital to meet some of these challenges.
    Mr. Vest. Behind our requests and our recommendations in 
this report on undergraduate scholarships and graduate 
fellowships for U.S. citizens is a model that looks roughly 
like this. We believe we need to increase the fraction of our 
American citizens who are educated in these fields, both 
undergraduate and advanced levels. We believe that that should 
be done by raising ultimately on the order of another couple of 
percent or so the number of U.S. citizens going into these 
fields, while not diminishing that extraordinarily important 
talent, the world's best and brightest, that also come here. 
That is really our goal.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. I am very glad you explained that, because I 
think, Senator, we need Senators like you, who have the concern 
that you have expressed, to understand that the recommendations 
are not intended to be penal and say, let us say we are not 
going to get that for the minorities in the United States, but 
let us bring the counterpart, that is a minority who was 
educated overseas. We are trying to do both, as he indicated, 
knowing that in the mean time we are very, very short. We 
cannot get there in the right way unless we do both.
    So I hope before we are finished that you will see your way 
clear to think that is a positive. I have the same concerns as 
you and I support the thrust. Thank you.
    Let us see. Senator Talent, did you want to inquire or not?
    [No response.]
    The Chairman. Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Thanks to the witnesses for your presence and your work in 
helping us understand these issues. Dr. Vest, I want to say 
especially to you I appreciate your leadership as I have worked 
with you more on the two commissions that you have been a part 
of. Without that consensus document, we would not really be 
anywhere in this effort.
    I want to endorse your point about the shortage of 
engineers in America. That is the wrong way of thinking about 
what we are doing. We are educating more talented engineers and 
scientists, not to take jobs, but to create jobs. We are and 
have been for years losing millions of jobs every year. What 
distinguishes the United States from the other countries in the 
world is that we create more good new jobs than we lose, and we 
need to help people understand that we are not doing this to 
graduate people to take jobs. Most of our new jobs come from 
little startups, one or two people, this idea, that skill. That 
is true in every part of this country and that is a very 
important point.
    I want to ask you if you would be willing to ask your staff 
to write a letter to the chairman describing in a page the 
process that you went through reviewing, coming to the 
conclusion about the 20 recommendations of the Augustine 
Report, because I think many Senators are not aware that you 
sifted through many models and many ideas and you narrowed them 
down and you subjected them to peer review. You did something 
that we are really not able to do, and that is one reason it is 
getting such wide acceptance here.
    But I would like to be able to cite that from time to time 
when somebody says, well, why did you pick the You Teach 
Program in Austin, Texas? Here is another good program over 
here in Salt Lake City. Well, you probably considered 20 
programs and you came with this model. So just a page on that 
would be helpful.
    A second thing would be, could you comment for a minute on 
why you believe, as I have heard you say, that all 20 of these 
recommendations need to be adopted, not 18 of them or 15 of 
them or 14 of them, that they are as a whole, that they are not 
individual recommendations? Would you want to make a brief 
comment about that?
    Mr. Vest. Yes, Senator Alexander. You and Senator Bingaman 
asked us a very straightforward, if complex, question, in a 
single sentence: What are the things that the Nation needs to 
do in science and technology to ensure our prosperity and 
security in the globalized economy of the 21st century, or some 
words very close to that?
    That is the question that under Norm Augustine's remarkable 
leadership we have attempted to answer. We came up with 
something that I have characterized here as being bold, 
comprehensive, and strategic. Frankly, that represents a lot of 
business thinking. Businesses do not go forward--and you know 
we had many CEOs or former CEOs on our committee. Businesses do 
not move forward without both a strategy, a long-term vision, 
figuring out what all the pieces are of the puzzle, recognizing 
that they each have a role to play in coming up with a 
comprehensive thrust forward.
    So it is sort of a business kind of analysis and thought 
that led us to believe that we had to produce something very 
comprehensive, that recognized the fact this is a long-term 
problem, it is not all going to be solved overnight, that we 
have to look at the educational pipeline all the way from 
kindergarten forward, and that many of these things would bear 
fruit at different points in time. But it is a comprehensive 
package and we believe that each of its parts will be more 
effective if somehow the entire program moves forward.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator. Thanks for all 
your hard work.
    Senator Talent, we are glad to have you here.

         STATEMENT OF HON. JAMES TALENT, U.S. SENATOR 
                         FROM MISSOURI

    Senator Talent. Thank you, Mr. Chairman. Thanks for letting 
me get in here at the end.
    Two areas I wanted to bring up with you, just your general 
opinions on them, and this is based on what I have seen and 
observed over the years on the ground about how we can 
encourage the interest in the sciences. The first is, what do 
you see as--what would you like to say that you see the role of 
the community colleges in general being? When I think of 
institutions that sort of connect up, that are the connectors 
between the needs of the corporate community, the business 
community, the trade for highly skilled people, and then the 
kids or the younger people, it is the community colleges that 
are on the ground sort of pulling all that together.
    So if you have a view on that, and it does not necessarily 
have to be all that specific, but what do you think?
    Then the second thing is, how as a practical matter do you 
think we can get more scientists, people who have maybe had a 
career or half a career in research or in private life, into 
the classroom? Because I think what inspires young people are 
being around people who themselves have a passion for the 
subject. If you get a historian in teaching history, those kids 
are going to see the passion that that person has and they are 
going to be attracted to that.
    How would you go about--how important do you think that is 
and how would you go about doing it?
    Mr. Proenza. Senator, to your first question, community 
colleges are playing an increasingly vital role in the 
fundamental workforce training of the United States, 
particularly entry-level jobs and those that utilize 
technology, but from the perspective of knowing how to use it 
in the workplace. Our universities are advancing the knowledge 
frontiers, if you will, and thereby adding to that dimension 
the kinds of people that need to come in and transform the 
workplace to become more efficient, more productive, and 
ultimately to bring on line the new tools that will create 
competitiveness and indeed increased wealth creation 
opportunity for our Nation.
    But there is no question that community colleges have done 
an outstanding job in linking to the fundamental needs at the 
workplace.
    Your second question requires that we do continue to 
transform the way in which teachers are certified and we get 
away from the need to simply put them through pedagogical 
courses, if you will, and look to bridging the gap between 
teachers who are studying pedagogy and those that need 
fundamental content. You are absolutely right, there are many 
people in the economy, coming out of the military, in various 
businesses, particularly those that are high technology and 
utilizing science and engineering in what they do, that can 
bring to the classroom that vitality that I spoke about, which 
the laboratories are able to engender in those teachers that 
they bring in, and why we feel that that is such a vital 
component for leveraging the national laboratories.
    In Ohio, for example, at my university we have brokered a 
partnership with the National Inventors Hall of Fame to bring 
exciting things in the National Inventors Hall of Fame that 
have so dominated the recognition of those inventors by that 
organization into a middle school that is focused on science 
and mathematics. That is a partnership between our university, 
the National Inventors Hall of Fame, and the Akron Public 
Schools.
    It is possible there are, as Dr. Vest indicated, many 
exceptional models out there of similar enterprises and we 
should do as much of that as we can.
    Senator Talent. I was visited earlier today by an 
engineering professor from Missouri and we were talking about 
the subject. He said he had two daughters and, talking to them 
about going into engineering, they say, no, it is just not very 
cool, dad. I think there is too much of that sense among young 
people, but if they were exposed to somebody who had created 
some product for some company and could give them these real 
life stories and just sort of show that, I think the kids would 
see: Wow, you know, you can really make these things or design 
on the computer or whatever.
    I do not know how much this is a big money item, really. 
This is just--because I bet these resources are out there and 
there are people who are willing to do this.
    Doctor, do you have a comment?
    Mr. Vest. Senator Talent, we could have an entire hearing 
on this last point you have made.
    Senator Talent. Well, do not tempt the chairman. It is a 
subject that he might call you all back.
    [Laughter.]
    Mr. Vest. But I want to say this. I was horrified recently 
looking at a survey that had been done in a small area, but a 
survey of why young kids were not going into engineering. The 
No. 1 reason given in the sort of open form part of the survey 
was: We want to go into something where we can make the world 
better. This is our failure. It is not somebody else's failure. 
I spent my whole life in engineering education. This is our 
failure.
    They need to understand that their scientific and 
engineering backgrounds can in fact be the things that can 
solve these great global problems. That is the message we all 
have to get out.
    Community colleges are extremely important because I try to 
consistently use the phrase, we have to create, we have to have 
a workforce and leadership that can both create and perform the 
jobs of the future. But it all begins with K-12. If you do not 
fix K-12, colleges cannot do their job, universities cannot do 
their job.
    Finally, I will just tell you, sir, that industry is full 
of people ready to go out and play this role as Luis, as Dr. 
Proenza has said. IBM, Intel, all these companies already are 
launching these programs. The national labs do it. We just need 
to build that momentum, get whatever barriers are there out of 
the way, because inspiration is the major deal here.
    Senator Talent. Thank you, Mr. Chairman.
    Mr. Proenza. If I might just say, Dr. Vest just reminded me 
we have a mutual colleague on the President's Council on 
Science and Technology, Floyd Kwame, who made I think a very 
telling point. He said you do not go to college to study French 
to become a Frenchman. So when you go to school and study 
engineering, it is not just to become an engineer; it is 
actually to learn how to solve problems.
    It is that linkage that I think Dr. Vest is looking to find 
a way to solve, to convince our young people that these tools 
of science, engineering, mathematics, and technology are 
problem-solving tools. To Senator Craig's earlier comment, it 
is that connection that we have been so vitally interested in 
and which the PACE legislation I think underscores.
    Senator Talent. And the easiest way to do that is if you 
can expose them at the right age to people who believe that 
passionately and will just naturally communicate that to them 
because they have lived it, that is better than public service 
announcements or other things talking at them. It is the 
teacher that they are around or some class that they are in. 
That is kind of my feeling about it.
    Thank you, Mr. Chairman.
    The Chairman. Well, we are going to close now. But I just 
wanted to say, while it might not--I am not sure yet whether it 
is within this piece of legislation or the one that goes to the 
Education Committee, but, you know, Dr. Proenza, we are going 
to run into a problem in terms of certification of teachers. We 
have extreme self-righteousness on the part of States, that you 
are going to be certified the way we say and you are going to 
go to our universities and take 2 years of learning how to 
educate kids. Even if you already have a Ph.D. and you have 
taught this, that, and the other, you have got to go back to 
college and get--we have got to find some way in this 
legislation that if we are going to go through all this 
resource-building that we are not going to end up with doing 
all this training and getting people ready to teach, only to 
find that the State has a different thought about it. They have 
got to find out up front. If they want to participate, they 
have got to join up. They have got to accept what we are doing 
as something good for them. They cannot be out in left field.
    I know you already know that, both of you, very well and I 
am a little--I am permitted to be a little tougher on it than 
you because you are part of that system. But I have been very 
open that about 6 States decided about 15 years ago that we did 
not even need colleges of education within their universities. 
I think you know that, Dr. Vest. I praised them because I did 
not think their colleges of education were doing much good.
    What we needed to do is get teachers who knew how to teach 
and that knew the subject matter, not only what you teach in a 
college of education. The statistics are terrific, terrible, 
how many kids are being taught in the fourth through twelfth 
grade by people that do not know nothing about math and they 
are being taught math, being taught science by a person that is 
not a scientist.
    We cannot do that and get where you want to go, can we, 
doctor? They have to know something about it.
    Mr. Vest. No, sir. That is why that recommendation in our 
report is numbered A-1: get kids to go into these fields and 
disciplines, get the additional work they need in pedagogy, and 
get out into the field.
    The Chairman. Well, I thought the hearing went well. Since 
our piece of this major legislation is pretty well defined, we 
are going to take a look with our staff and see if we need any 
further things to fill in. But I want to state for the record, 
if we think we have got enough we are going to proceed to mark 
up this bill one of these days not too far off and see if we 
can get the first piece of this legislation at least down to 
the Senate floor.
    I am fully aware and the leadership in the Senate knows 
this is not the legislation, this is a piece of it, and our 
goal is to find a way to do what you recommended and that is to 
get all of it forwarded and in some way to put it together. So 
if it goes down by itself and you talk about it as 
commissioners who put it together--we do not intend to run it 
on its own. We are going to wait for the other committees and 
then see how they package it. Then the House is starting its 
version.
    So all we are trying to do is set the pace. It is 
interesting, set the pace for PACE.
    Thank you for being here and it is a pleasure getting to 
meet you, doctor. I look forward to meeting and talking with 
you more. Thank you.
    [Whereupon, at 12:30 p.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Luis Proenza to Questions From Senator Domenici

    Question 1. In your written testimony, you propose a ``hub and 
spokes'' model for math and science education programs, centered on the 
National Laboratories. You also mention the need for flexibility to 
make each program meet the local school district's needs.
    How can the national laboratories best ensure that they are 
targeting their programs to the needs of local school districts?
    Answer. The hub-and-spoke notion is one in which each of the 
laboratories is assigned a geographical service area. In fact, DOE has 
identified such geographical areas, as shown in the attached diagram.* 
The ``flexibility'' idea relates to the needed local adaptations that 
are appropriate to each of the laboratories areas of expertise, as well 
as to possible local needs of the school districts served by each 
laboratory. Such needs could include, for example, some districts 
having greater need for mathematics teachers as compared to science and 
vice versa. Guidance on this matter could follow the approach 
identified by the California Council on Science and Technology or 
utilize established networks within each state's educational systems.
---------------------------------------------------------------------------
    *Attachments have been retained in committee files.
---------------------------------------------------------------------------
    Question 2. In your written testimony, you discuss the importance 
of incorporating digital technologies, such as virtual reality 
simulations, into math and science instruction. These technologies, as 
you point out, rely on broadband communication.
    How many of our public schools are equipped for broadband today? Is 
funding the only limiting factor to increasing broadband access at our 
nation's schools?
    Answer. Broadband is rapidly expanding and is now increasingly 
available even through wireless communications providers. What is more, 
we are rapidly seeing the deployment of additional technologies, such 
as Pod casting and self contained portable technologies (e.g., PDA's, 
pentop computers, tablet computers, etc.) that enable simulations to be 
brought to the classroom independent of broadband. In Ohio, the Third 
Frontier Network and initiatives such as One Cleveland/One NEO are 
rapidly expanding broadband access to the classroom. Also, The 
University of Akron, for example, has had an exemplary tradition of 
enabling broadband access to university resources for a wide array of 
public schools throughout the Northeast Ohio region. In short, the 
current state of the broadband access issue, given the Administration's 
efforts to advance broadband access, the initiatives of local 
communities and the continued evolution of technology, should make this 
matter a moot issue.
      Responses of Luis Proenza to Questions From Senator Bingaman
    Question 1. Sections 171 and 181 of the PACE bill in the HELP 
committee direct the Secretary of Energy to establish large 
undergraduate and graduate programs at the Department in the areas of 
math, science and engineering education. Can you please comment on how 
you think the Department can handle such large scholarship programs?
    Answer. The DOE is experienced in the handling of numerous 
undergraduate, graduate and postdoctoral support mechanisms. I am not 
aware of any apparent limitations for DOE in this regard.
    Question 2. The PACE--Energy bill authorizes the development of a 
summer internship program for middle and secondary school students to 
actually work with scientists for hands on experience. Can you please 
comment on the best way to implement such a program--should a technical 
staff member be physically assigned a student much like a graduate 
student or are there other interactive methods that can be employed?
    Answer. DOE already has many programs that involve middle and 
secondary school students in summer internships and other programs. Our 
review of these programs suggested that they are positive and should be 
continued wherever possible. However, we did not see the opportunity of 
such programs to have anything like the leveraging impact of working 
through teachers. In other words, the 17 National Laboratories can and 
should have programs that provide access opportunities for students, 
but such programs can never equal the impact that can be gained through 
the transformative effects of laboratory experience for teachers. It is 
a simple matter of the ``10,000 teachers for 10 million minds'' 
leveraging opportunity.
    Question 3. Based upon your experience with the SEAB study on math 
and science education and our PACE--Energy bill concerning summer 
institutes--how should the Department best implement the program to 
affect the greatest number of students in the most beneficial way?
    Answer. See my response to 2, above. Once again, it is a question 
of leveraging vs. direct exposure. The Science Bowls and other outreach 
efforts should be continued, particularly in the local service areas of 
the National Laboratories, but the greatest leveraging impact, we 
believe, can be gained through the professional development of 
teachers.
    Question 4. This legislation proposes to strengthen the math and 
science competencies of K-12 teachers in a number of ways, which of 
course we hope will lead to better prepared and educated students. PACE 
also creates opportunities for students to participate in internships 
at the labs, which we hope will give them an exciting, hands-on 
experience leading to greater interest and success in math and science. 
What more can we do to excite, interest, or encourage young people to 
pursue postsecondary education and careers in math or science?
    Answer. As far as creating opportunities for exciting, interesting 
and encouraging students to pursue STEM careers, we believe that DOE's 
most direct opportunity lies through the professional development of 
teachers. Beyond that, we see untapped potential in the domains of (1) 
making Web-based materials available that provide interactive 
opportunities for students and teachers alike and which enable powerful 
simulation or visualization experiences of complex physical and 
engineering problems and (2) that enable students and teachers to 
remotely access laboratory facilities in an interactive mode.
       Responses of Luis Proenza to Questions From Senator Akaka
    Question 1. Dr. Proenza, I would like to ask you for your ideas on 
this as well. Are there ways that you could see extending the reach of 
National Labs' expertise to states that are geographically remote from 
Los Alamos, Brookhaven, or Lawrence Livermore?
    Answer. Once again, the role of teachers cannot be underestimated 
as a leveraging force. In addition, the National Laboratories can 
develop computer-based exercises as well as remote-access opportunities 
that utilize the Internet to extend the reach of the laboratories 
beyond their immediate locales and the boundaries of their assigned 
geographical areas. In addition, we are of the opinion that other 
Federal agencies, as well as university and corporate resources, can 
and should be considered as adjuncts to the National Laboratories. That 
means that a significant interagency coordinating role must be mounted, 
perhaps through the National Science and Technology Council and the 
Office of Science and Technology Policy.
                                 ______
                                 
    Responses of Charles M. Vest to Questions From Senator Domenici

    Question 1. In the Gathering Storm report, your committee 
recommended an increase in long-term basic research of 10 percent a 
year over the next seven years.
    Does the President's American Competitiveness Initiative go far 
enough towards meeting this recommendation?
    Should research agencies beyond the three highlighted by the 
President be considered for similar funding increases? If so, which 
ones?
    Answer. The President's American Competitiveness Initiative is a 
very positive first step toward the comprehensive actions recommended 
by the National Academy of Sciences, National Academy of Engineering, 
and Institute of Medicine report Rising Above the Gathering Storm.
    As indicated the committee recommended that funding for basic 
research be increased by 10% per year over the next 7 years. The 
President's American competitiveness initiative doubles ``the Federal 
commitment to the most critical basic research programs in the physical 
sciences over the next 10 years.''
    The committee did not specify the agencies that should receive the 
increase--other than indicating that the Department of Defense 6.1 
budget and the fields of the physical sciences, mathematics, 
engineering, and computer sciences throughout federal agencies were of 
particular concern. Based on past history as analyzed by the National 
Science Foundation, the four agencies providing the highest percentage 
of funding for the fields identified by the committee as being of 
special concern are the National Science Foundation, the Department of 
Energy, the National Aeronautics and Space Administration, and the 
Department of Defense as shown in the table below:

   PRELIMINARY FEDERAL OBLIGATIONS FOR BASIC RESEARCH IN THE PHYSICAL
SCIENCES, MATHEMATICS, COMPUTER SCIENCES, AND ENGINEERING, BY AGENCY, FY
                                 2004\1\
------------------------------------------------------------------------
                                                     Funding
                                                    (billions     % of
                                                        $)       total
------------------------------------------------------------------------
All agencies......................................      7.4
Department of Energy..............................      2.1       28
National Science Foundation.......................      1.9       26
National Aeronautics and Space Administration.....      1.5       21
Department of Defense.............................      1.1       15
------------------------------------------------------------------------
\1\ Other agencies which fund these areas are Commerce, HHS, USDA, DHS,
  Interior, VA, and EPA. HHS is largest at 6%; remainder at 1% or less
  for a total of 10%. Source: NSF, 2005. Federal Funds for Research and
  Development: Fiscal Years 2002, 2003, and 2004 (Publication No: NSF 05-
  307)

    The President's budget increase focuses on the National Science 
Foundation, the National Institute of Standards and Technology, and the 
Department of Energy Office of Science.
    Maintaining or increasing funding for all federal research 
agencies, of course, is important. If additional agencies were to be 
added, the committee would suggest focusing the increases on the basic 
research activities of the Department of Defense (6.1) and the National 
Aeronautics and Space Administration in the physical sciences, 
engineering, computer sciences, and mathematics.
    Although not an exact match, the committee believes that the 
actions provided in the President's American Competitiveness Initiative 
are consistent with the recommendations in the report.
    Responses of Charles M. Vest to Questions From Senator Bingaman
    Question 1. What were the academies thinking that led to the 
proposal for an ARPA-E entity with the Department and what other models 
did your panel consider?
    Answer. The committee believes that ARPA-E would be an important 
and productive component of the research and development infrastructure 
needed to respond to the nation's urgent need for clean, affordable, 
reliable energy. ARPA-E would provide the following benefits for the 
nation:

  <bullet> Bring a freshness, excitement, and sense of mission to 
        energy research that will attract many of our best and 
        brightest minds--those of experienced scientists and engineers, 
        and, especially, those of students and young researchers, 
        including those in the entrepreneurial world.
  <bullet> Focus on creative, out-of-the-box, potentially 
        transformational research that industry cannot or will not 
        support.
  <bullet> Utilize an ARPA-like organization that is flat, nimble, and 
        sparse, yet capable of setting goals and making decisions that 
        will allow it to sustain for long periods of time those 
        projects whose promise is real, and to phase out programs that 
        do not prove to be productive or as promising as anticipated.
  <bullet> Create a new tool to bridge the troubling gaps between basic 
        energy research, development, and industrial innovation.

    The committee considered several models before deciding to focus on 
energy and to use ARPA as a template. Among these were In-Q-Tel (which 
engages the entrepreneurial community with technologies of potential 
interest to the intelligence community), HSARPA (the Department of 
Homeland Security Version of ARPA), SEMATECH (a jointly funded research 
venture of the federal government and the semiconductor industry), 
Advanced Technology Program (ATP), Small Business Innovation Research 
program (SBIR), Civilian Technology Corporation (recommended in a 
previous 1992 National Academies report chaired by Harold Brown), and 
Discovery Innovation Institutes (recommended by a 2005 National 
Academies report chaired by James Duderstadt).
    Question 2. It is my understanding that legislation for the 
Department of Homeland Security includes the formation of a Homeland 
Security ARPA. Did you panel look at how this ARPA has performed?
    Answer. The committee did consider HSARPA and found its focus was 
more on short-term research than what the committee intends to be the 
case with ARPA-E.
    Question 3. One of the recommendations of your panel was to set 
aside 8 percent of programmatic funding for out of the box R&D 
proposals which would not normally or otherwise fare well in the 
tradition peer review process. Is this similar to the Laboratory 
Directed Research and Development funding or set aside for the National 
Laboratories? Can you please explain say how this would be implemented 
in the Office of Science?
    Answer. This proposal is somewhat different from the National 
Laboratory set aside which is focused on the top of the organization. 
Our discussions with National Laboratory directors indicate that 
although they have discretionary funds, the same is not true for those 
in the middle of the organization. We have also heard concerns that the 
earmarking of funds limits the ability of the national labs to make the 
best use of their funds.
    The committee also believes that this investment should be managed 
in the DOE's Office of Science by appropriately expert technical 
program managers in the middle of the organization, who we believe are 
already well organized to do so.
    Question 4. In a companion bill which now resides in the HELP 
committee, the Office of Science and Technology Policy was given the 
added responsibility for coordinating Math and Science education across 
various agencies, like DOE, NASA and NSF. Can you please comment on 
this?
    Answer. The committee believes this action is consistent with the 
goals of its report. This coordination role is familiar to OSTP and was 
effectively executed more than a decade ago under a now-defunct 
coordinating council. The placement of the deputy assistant director 
under the assistant director for science in OSTP is also consistent 
with the organization of the office over the last several years.
    The major issue with coordinating across federal agencies in 
general is in finding the right balance between ensuring coordination 
and effectiveness across agencies while not diluting or trespassing 
upon individual agency missions.
    The case of coordinating STEM education is particularly challenging 
because there are no national goals--thus the bill's language about 
establishing the goals and opening them up for public comment. It is 
important that this process not become overly political. To avoid 
politicization, there might be some kind of public input to the 
appointment process.
    Quesion 5. This legislation proposes to strengthen the math and 
science competencies of K-12 teachers in a number of ways, which of 
course we hope will lead to better prepared and educated students. PACE 
also creates opportunities for students to participate in internships 
at the labs, which we hope will give them an exciting, hands-on 
experience leading to greater interest and success in math and science. 
What more can we do to excite, interest, or encourage young people to 
pursue post-secondary education and careers in math or science?
    Answer. The greater the degree to which middle and high school 
students have the opportunity to engage in research activities whether 
at national labs, universities, industry, community colleges, or within 
their own schools, the greater the degree they will be excited, 
interested, and encouraged in pursuing careers in science, math, and 
engineering. Funding for these activities would be very useful.

       Response of Charles M. Vest to Question From Senator Akaka

    Question 1. Professor Vest, thank you for your testimony. I am 
pleased with the provisions in S. 2197 for education, teacher 
enhancement, and for supporting young researchers and advancing 
innovating technology. As many of my colleagues on this Committee know, 
I began my professional career as an educator, so educational 
initiatives are very important to me.
    I endorse the programs in the PACE-E bill, but I am concerned about 
the ``Lab-effect,'' in that some of the programs are to be established 
in the geographic regions of the National Labs. I am interested in your 
suggestions of how we can ensure that states like Hawaii which do not 
have a Department of Energy National Laboratory can enjoy the fruits of 
the program for assistance for specialty schools and Centers of 
Excellence in Math and Science in specialty or magnet schools? These 
two initiatives can be very important for reaching middle and high 
school students, and I am sure our schools would like to participate in 
the expertise of the National labs.
    Answer. Although the legislation focuses on Department of Energy 
National Labs, there are 700 federal labs supported by many other 
agencies located in every state that could be used for a similar 
purpose. (See http://www.federallabs.org/ )
    According to the information on this website, each year 
approximately $25 billion of federally funded research and development 
takes place at more than 700 federal laboratories and centers which 
address virtually every area of science and technology and employ more 
than 100,000 scientists and engineer.
    Examples in Hawaii include the Pacific Basin Agricultural Research 
Center in Hilo, the Institute of Pacific Islands Forestry in Honolulu, 
and the National Oceanic & Atmospheric Administration's (NOAA) Honolulu 
laboratory.
    I would make two additional points. First, I think that there 
should be modest coordination among these educational outreach efforts 
by the labs. There should be sharing of best practices and some degree 
of coherence brought to the programs in order to do the best possible 
job and to gain efficiencies. Second, our Gathering Storm report 
recommended the establishment of summer institutes for teachers, with a 
goal of reaching 50,000 practicing teachers each summer. We envision 
that these could be conducted in industry and at universities, as well 
as at the national labs.
                                 ______
                                 
   Responses of Raymond L. Orbach to Questions From Senator Domenici

    Question 1. What are some of the strengths of current education 
programs at the National Labs? Which of those programs should we be 
emulating at other facilities?
    Answer. The key differentiating factor in all the education 
programs our national laboratories offer is mentor-intensive research 
experiences that expose the participants to the real world of science. 
This is done through internships and fellowships that peak in the 
summer but occur year-round. There are three types of programs, each 
based on a specific target population, which could be emulated at all 
national laboratories. Each of these types of programs has operated in 
some form or another at many of the national laboratories. The most 
common program type, which has the greatest number of participants, is 
the internship program for college-level students. Two of the most 
important best practices that define internship programs are to set 
clearly defined goals for the students and to provide proper guidance 
to the mentors. Other critical components of this model are providing 
stipend support for the students and having each national laboratory 
education office administer its own programs to ensure the proper 
guidance and assessment of the programs. The second program type is 
targeted at teachers and provides them with professional development 
research experiences that their respective school systems cannot 
provide. Although research indicates the most successful programs 
involve teachers for many weeks over multiple years, only about half of 
our labs have the resources to carry out such extensive programs. The 
third type of program targets faculty from colleges and universities 
who have typically not been at a national laboratory. This is a 
developmental program that has led the participating faculty to compete 
successfully for federal grant support, often for the first time in 
their careers.
    Question 2. Are there particular areas of science and engineering 
the Department of Energy has an interest in assuring that students are 
still ``entering the pipeline?''
    In other words, are there energy fields that, given current trends, 
we expect will have future shortages of qualified employees?
    Answer. The Department is working to improve its understanding of 
market and employment trends. There are professions related to certain 
sectors of energy-related fields that will probably see an increase in 
employment demand because of retirement and/or renewed growth. For 
instance, with renewed interest in nuclear power, student enrollments 
in nuclear-related disciplines have swelled. In such cases where the 
Department does not foresee future shortages, it has and will continue 
to direct its funding to more pressing priorities. There are, however, 
small niches within certain sectors such as radio-chemists which are 
and may continue to see some shortages. The difficulty in projecting is 
that, rather than a few large sectors seeing shortfalls, numerous small 
sectors are more likely to see shortages.

   Responses of Raymond L. Orbach to Questions From Senator Bingaman
    Question 1. The Energy Policy Act of 2005 established a stand-alone 
fund in section 1102 that required the Secretary of Energy to set aside 
0.3 percent of the monies made available for research, development and 
demonstration or roughly $40 million for this fiscal year. How has the 
Department implemented this provision?
    Answer. The Department is still in the process of reviewing section 
1102 of the Energy Policy Act. If you include all sources of funding 
for education, including direct funding by DOE as well as education 
programs funded by the national laboratories you will find that DOE 
funding exceeds the amount called for in the Energy Policy Act.
    Question 2. The PACE Energy legislation proposes to amend the DOE 
Science Education Act to create a coordinator for Math, Science and 
Engineering Education programs which reports to the Undersecretary for 
Science and is responsible for the various education programs 
Department-wide. Does such a position help the Department?
    Answer. The director of my Workforce Development for Teachers and 
Scientists program effectively serves that need already. Over the past 
three years, the director has convened all the education offices in the 
National Labs to plan a concerted effort in education. The director 
typically represents the Department in interagency and governmental 
meetings that involve science and engineering education.
    Question 3. The PACE Energy legislation proposes to have each 
national laboratory establish a program whereby the laboratory supports 
a Center of Excellence in Math and Science at a public school in the 
region of the laboratory which will involve laboratory staff teaching 
at the school. Do you think the laboratories will embrace such a 
program when they so programmatically oriented?
    Answer. I do not think many of the labs would embrace such a 
program. A problem with such a program is that the scientists are not 
trained as teachers. Companies such as IBM and organizations like Teach 
for America have often struggled with placing non-teachers with science 
content knowledge in school settings without the help of experienced 
teachers. Another issue in implementing such a program, especially for 
national laboratories near metropolitan areas with very large numbers 
of schools, is determining who should be provided with this intensive 
support and deciding what schools should be served.
    On the other hand, providing schools access to the scientific 
community on a long-term basis can be very constructive. By far, the 
most efficient and effective impact that national laboratory scientists 
could have is by working directly with teachers. That is why bringing 
teachers to the national laboratories to learn how science is actually 
done and training these teachers to be leaders and agents of change is 
so well received at all our national laboratories.
ARPA-E and Potential Alternatives
    Question 4. Secretary Bodman has been quoted in the trade press as 
preferring an In-Q-Tel like entity. To me the overall question is how 
the Department can accelerate high risk basic energy research into 
something which is acceptable to the marketplace. Can you discuss the 
pros and cons of the ARPA proposed in the legislation versus say the 
In-Q-Tel that the Secretary is quoted as favoring?
    Answer. The Administration is in the process of evaluating the 
provisions of S. 2197, the Protecting America's Competitive Edge 
through Energy Act of 2006 (also known as the PACE-Energy Act)--
including the Advanced Research Projects Authority-Energy (ARPA-E) 
provisions.
    The Secretary has stated that In-Q-Tel, the Central Intelligence 
Agency's ``venture capital fund,'' is a possible alternative model to 
ARPA-E. As the Department proceeds with its consideration of the 
legislation, we look forward to substantive discussion with the 
Committee and others on the merits of ARPA-E or possible alternatives.
    Question 5. PACE takes some important steps to leverage the 
resources and expertise available to the Department of Energy, and the 
Office of Science in particular, to strengthen math and science 
education at both the K-12 and postsecondary levels, such as summer 
institutes for teachers, internship opportunities for middle and high 
school students, and statewide specialty schools. Are there additional 
ways to maximize the resources and expertise available to the 
Department to strengthen math and science education at both the K-12 
and postsecondary levels?
    Answer. This occurs through collaborations with other federal 
agencies, the entire education community, and the private sector. For 
example, the Office of Science supports a Faculty and Student Team 
program that last year brought nearly 40 teams to our national 
laboratories. This was done in partnership with the National Science 
Foundation. This year the National Institutes of Health are also 
starting to use the national laboratories to help provide advanced 
research experiences to some of its students, through a similar 
partnership.

     Responses of Raymond L. Orbach to Questions From Senator Akaka
Funding DOE Math, Science, and Engineering Education
    Question 1. Dr. Orbach, it is nice to see you again, and I 
appreciate all the work that the Office of Science does to promote 
hydrogen, fusion, and other cutting-edge initiatives. I agree with our 
distinguished witnesses that science education is critical for 
America's competitiveness, and I support the goals of the PACE bills.
    I want to ask you about financing for these proposed education 
initiatives since I noted concerns in your testimony. If I understand 
correctly, .3 percent of the total Department of Energy appropriation 
would be set aside for a Math, Science, and Engineering Education Fund. 
Secondly, there would be a revolving fund established in the Treasury 
Department that would help fund the ``Advanced Research Projects 
Authority'' for the Department of Energy.
    I am interested in any comments you might have on these two 
provisions in particular, and any additional thoughts you might have 
about financing promising energy technologies and encouraging 
scientific education and teaching.
    Answer. The Energy Policy Act of 2005 already amended the Science 
Education Enhancement Act to include a provision for a ``Science 
Education Enhancement Fund'', composed of ``not less than 0.3 percent 
of the amount made available to the Department for research, 
development, demonstration, and commercial application''. The PACE-
Energy Act would further amend the same section of the Science 
Education Enhancement Act to change the title of the fund to the 
``Mathematics, Science, and Engineering Fund'', in the same amount as 
the Energy Policy Act provision.
    The 0.3 percent set aside for the ``Math, Science, and Engineering 
Education Fund'' would amount to roughly $40 million dollars a year 
when applied against all research, development, demonstration, and 
commercial application funding within the Department. If you include 
all sources of funding for education, including direct funding by DOE 
as well as education programs funded by the national laboratories you 
will find that DOE funding exceeds the figure called for in the PACE-
Energy and Energy Policy Acts.
ARPA-E and Potential Alternatives
    Question 2. I have previously spoken about the need to rely less on 
oil and natural resources and look more toward the use of advanced 
technology to facilitate renewable energy sources.
    The PACE-Energy bill includes a provision to establish the Advanced 
Research Projects Authority--Energy (ARPA-E). This organization will be 
headed by a newly appointed Director [and] will have authority to award 
competitive, merit-based grants, cooperative agreements, and contracts 
to public or private entities.
    Given that this office will be charged with rapidly developing 
critical energy technologies, do you anticipate that the Director would 
have any special acquisition authorities to expedite the research and 
development, and, if so, how will you ensure that the efforts of this 
ARPA-E office will not result in loosely-managed research projects that 
do not yield the desired results?
    Answer. The Administration is in the process of evaluating the 
provisions of S. 2197, the Protecting America's Competitive Edge 
through Energy Act of 2006--including the ARPA-E provisions. As this 
assessment proceeds, we would be happy to discuss our views on ARPA-E 
or possible alternatives with you or your staff.

     Responses of Raymond L. Orbach to Questions From Senator Wyden
Legislation to Commercialize Promising Technologies
    Question 1. All the research in the world won't improve U.S. 
competitiveness if it doesn't lead to new products and services that 
the U.S. can sell to global markets. What is the timetable for this 
legislation to commercialize promising technologies?
    Answer. The Administration is currently evaluating the provisions 
of the PACE-Energy Act. DOE would be happy to discuss proposals to 
accelerate the commercialization of promising technologies with you or 
your staff
    We cannot address the question of a timetable for this legislation 
as the legislative schedule is set by the Congress.
PACE and U.S. Competitiveness
    Question 2. According to the World Economic Forum, the U.S. is no. 
2 behind Finland on their competitive index. We must be doing something 
right. How does the PACE legislation build on and further the things 
that our nation is already doing successfully.
    Answer. There are a number of reasons why the U.S. has been so 
successful. Two of our biggest advantages are our very substantial 
pnvate and public sector investments in research and development for 
new technologies and our sustained support for the next generation of 
scientists via our world-leading college and university system.
    Although economists are loath to identify a precise number, it is 
widely accepted that, as Nobel Laureate Robert Solow put it, 
``[T]echnology remains the dominant engine of growth, with human 
capital investment [that is to say education] in second place.'' From 
his December 8, 1987 Nobel Prize lecture: ``. . . Technological 
progress, very broadly defined to include improvements in the human 
factor, was necessary to allow long-run growth in real wages and the 
standard of living . . . . Gross output per hour of work in the U.S. 
economy doubled between 1909 and 1949; and some seven-eighths of that 
increase could be attributed to `technological change in the broadest 
sense' and only the remaining eighth could be attributed to 
conventional increase in capital intensity . . . . The broad conclusion 
has held up surprisingly well in the thirty years since then . . . 
[E]ducation per worker accounts for 30 percent of the increase in 
output per worker and the advance of knowledge accounts for 64 percent 
. . . .''
    Or, in other words, Science is good for the Nation. Support of 
science, the basis of technological growth, is a necessary investment 
for fully two-thirds of economic growth, according to Solow.
    The President's American Competitiveness Initiative (ACI), unveiled 
in his State of the Union message, demonstrates the President's strong 
commitment to continued U.S. competitiveness through a renewed national 
effort in basic scientific research science and math education, and 
private-sector investment. The State of the Union message, and the 
subsequent release of the President's FY 2007 budget that contains 
substantial increases for basic research in the physical sciences, are 
all part of the strategy to maintain and sharpen America's 
competitiveness.
    With respect specifically to the PACE-Energy legislation, the 
Department has just begun to consider this legislation. As our 
assessment proceeds, we would be happy to talk with you or your staff.
Science and Technology Training for Women and Girls
    Question 3. Could the PACE legislation achieve the same or better 
results at lower cost, if the Energy Department was enforcing Title IX 
and not writing off the potential contribution of 51% of the U.S. 
population--women and girls--who want to become leaders in the STEM 
(science, technology, engineering and math) fields?
    Answer. The Department certainly does not write off the 
contributions or potential contributions of any part of U.S. society. 
Participants in all of DOE's education programs as well as all 
recipients of our research funding are selected competitively, based on 
merit.

Ensuring DOE R&D Funding goes to the ``Best and the Brightest''
    Question 4. Do you have any objections to adding language to the 
PACE bill to help ensure that Energy Department R&D funding goes to the 
best and the brightest, regardless of gender?
    Answer. As stated in the previous response, Office of Science 
funding is awarded on a competitive merit basis, ensuring that only the 
``best and the brightest'' receive funding. While we strongly support 
funding the best proposals, without regard to gender, we do not feel 
that legislative language mandating what we already do will offer any 
additional benefit.

   Responses of Raymond L. Orbach to Questions From Senator Feinstein
ARPA-E and the Development of Low-or Non-Carbon Emitting Technologies
    Question 1. The ``Protecting America's Competitive Edge Through 
Energy Act of 2006'' includes a provision that would create an Advanced 
Research Projects Authority-Energy (ARPA-E). On the surface, ARPA-E 
should promote the development of new technologies. However, these 
grants do not target the development of low-carbon or carbon-free 
technologies. Given the real threat of climate change, would you 
support targeting climate-friendly technologies?
    Answer. The Administration is currently evaluating the provisions 
of S. 2197, the Protecting America's Competitive Edge through Energy 
Act of 2006--including the ARPA-E provisions. As our assessment 
proceeds, however we would be happy to discuss the details of the 
legislation, including ARPA-E or possible alternatives with you or your 
staff.
    The President's Advanced Energy Initiative aims to reduce America's 
dependence on imported energy sources, encourage the use of alternative 
fuel technologies that reduce emissions, and generate cleaner 
electricity. The FY 2007 DOE budget requests $2.1 billion to meet these 
goals, an increase of $381 million over FY 2006.
    The FY 2007 budget request emphasizes investment in alternative 
fuel technologies, among other areas. Numerous DOE offices will 
participate in the Advanced Energy Initiative. The Office of Science's 
share ($539 million) of this Initiative will fund the ITER project, an 
experimental reactor expected to further the potential of nuclear 
fusion as a source of environmentally safe energy, as well as solar, 
biomass, and hydrogen research programs.
    The Office of Energy Efficiency and Renewable Energy's share ($771 
million) of the Initiative includes funding increases for hydrogen, 
fuel cell, biomass, solar, and wind research programs. The Office of 
Fossil Energy's share ($444 million) supports its Coal Research 
Initiative and other power generation/stationary fuel cell research 
programs. The Office of Nuclear Energy, Science and Technology's share 
($392 million) includes $250 million for the Global Nuclear Energy 
Partnership (GNEP) and also supports Generation IV, Nuclear Power 2010, 
and the Nuclear Hydrogen Initiative. GNEP is a comprehensive strategy 
to enable an expansion of nuclear power in the U.S. and around the 
world, to promote nuclear nonproliferation goals; and to help resolve 
nuclear waste disposal issues.
ARPA-E and the Commercialization of Promising Energy Technologies
    Question 2. Additionally, ARPA-E does not include a clear 
regulatory pathway to commercialization. Do you believe that the DARPA 
model is a good model for energy technologies given the lack of a 
customer in the energy markets compared to the military? Can you 
provide thoughts on how these technologies can be commercially 
developed?
    Answer. As stated above, the Administration is in the process of 
evaluating the provisions of S. 2197, the Protecting America's 
Competitive Edge through Energy Act of 2006--including the ARPA-E 
provisions, and so we are not in a position to comment at this time. As 
our assessment proceeds, however, we would be happy to discuss our 
views and gain input from the Committee and its staff.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

 Prepared Statement of Dr. Patrick Kociolek, Executive Director of the 
                     California Academy of Sciences

    I would like to thank the Committee for the opportunity to present 
this testimony for the record on the important issue of improving 
science education to ensure America's long term competitiveness. The 
PACE-Energy Act (S. 2197) currently being considered by the Committee 
provides an excellent foundation for improving the scientific 
understanding of future scientists and non-scientists alike. I applaud 
the effort.
    America's competitiveness in the 21st century is inextricably 
linked to science and, therefore, science education. The areas of 
science that have been important to our country, and continue and will 
be important in the foreseeable future include space sciences, 
technology, medicine, agriculture, chemistry, energy and biology. 1 
would, however, like to add additional perspective on the important 
role played in science education by ``informal'' institutions such as 
the California Academy of Sciences as well as other zoos, aquaria, 
planetariums, science centers and museums.
    As the Committee prepares to markup S. 2197 I recommend that the 
Committee consider opportunities for informal science education within 
the scope of the new programs authorized in the bill. The remainder of 
my statement discusses the significant contributions of informal 
science education to the objectives of this legislation.

  INFORMAL SCIENCE INSTITUTIONS ARE INSTRUMENTAL IN DEVELOPING EARLY 
   INTEREST AND EXCITEMENT KEY TO LONG-TERM INTEREST IN SCIENCE AND 
                            SCIENCE CAREERS

    Through a wide ranging set of exhibitions and programs, museums, 
aquaria and planetariums play important roles in helping people better 
understand science, appreciate the role of science in their daily 
lives, have them participate in the scientific process and experience 
and consider careers in the scientific enterprise. This familiarity 
with science is critical for our stature in the world and the 
functioning of our democracy. The pipeline for future scientists must 
be developed early, to not address immediate needs, but to ensure a 
reliable source of scientists for future generations.
    A study by the National Science Foundation indicated that over 90% 
who currently have careers in science remember being stimulated about 
the sciences through visits to natural history museums, aquariums and 
planetariums. This staggering figure demonstrates the impact informal 
learning opportunities can have on our children's interests and their 
career decisions.
    Our institution, and others like it, take this a step further and 
provide real world training to young people. The California Academy of 
Sciences runs a program called ``Careers in Science'' in which we offer 
paid internships to young people (concentrating on underrepresented and 
economically disadvantaged populations) starting at age 15. Once 
accepted into this program, students continue as employees of the 
Academy, working in laboratories, libraries, and on the public floor of 
the museum, through their first year in college. Over 90 percent of the 
students who participate in this program do go on to college, many 
representing the first in their families to do so. Last year we had 135 
applications for the 8 openings in this program.

  INFORMAL SCIENCE INSTITUTIONS AND FORMAL EDUCATION ARE INEXTRICABLY 
                                 LINKED

    Museums are excellent adjuncts to the formal education process. In 
San Francisco, the California Academy of Sciences hosts classes and 
teachers from every school-public and private, elementary, middle and 
high school, to its museum every year. In addition, 40% of the schools 
from Monterey to the Oregon border send at least one class to the 
Academy every year. The importance of augmenting what is happening in 
the classroom cannot be underestimated. Early assessment tools are 
showing students who have had an experience at a museum do better on 
classroom assignments and test scores than those not attending the 
museum. It has been estimated that museums spend more than $1 billion 
helping to provide over 18 million instructional hours for educational 
programming. These programs are built around national and state science 
standards to ensure a direct link between classroom topics and 
expectations and the museum programs.
    Museums also provide teachers with access to scientists, 
experiences, information and objects that can augment their classroom 
activities and learning environment. In this day and age where 
resources of many kinds are in short supply in our nation's schools, 
museums have important education tools and objects support inquiry-
based learning. In some instances informal science education 
institutions provide access to resources that it does not make sense 
for each school system to possess--for example, few school systems 
would consider duplicating the live animal collection of the National 
Zoo. In other instances, school systems do not have access to even 
rudimentary science tools such as microscopes. In these cases, access 
to a museum or science center provides students with their only hands 
on experience with the scientific process.
    In addition, these ``informal'' institutions can and do provide 
career enhancement opportunities for teachers, allowing them to engage 
and discuss with scientists on the cutting edge of their fields, 
providing teachers with the latest knowledge to take into their 
classrooms. Teacher trainings and a wide range of professional 
development opportunities afforded by museums help with the ``domino 
effect'' of leveraging impact from teachers to students.

INFORMAL SCIENCE INSTITUTIONS INCREASE THE GENERAL SCIENCE LITERACY SO 
       IMPORTANT IN AN INCREASINGLY COMPLEX TECHNICAL ENVIRONMENT

    Museums are great equalizers in our society: They bring real 
objects and ideas to a large and diverse audience that would otherwise 
not have direct access to incredible resources: resources from the 
community as well as from around the world. Natural history museums, 
aquaria, planetariums and science centers host hundreds of millions of 
visitors, local, regional and national.
    Museums are trusted sources of information. 90% of Americans, 
across large segments of our society trust what they learn from 
museums. This incredible responsibility of museums can be translated 
into access and the ability to convey important concepts and 
information that are relevant, useful and make impacts on the daily 
lives of our citizens.
    To meet the current and emerging demands in the sciences, we need 
to create a workforce well versed in the sciences, and invest in 
research and development to stay ahead and apace of the world. However, 
it is also essential that all Americans better understand the 
scientific process and the importance science has on their lives, as 
well as the lives of their children, grandchildren and future 
generations of Americans.
    So many decisions that we make each day, from the foods we eat, 
medical procedures we choose, transportation alternatives we consider, 
to how we heat and cool our homes and businesses, and the environmental 
conditions in which we live, require some understanding of scientific 
principles and processes. And--as much of the legislation brought 
before our local, state and national legislatures have scientific bases 
(homeland security, agriculture, and transportation to name a few)--the 
integrity and effectiveness of the democratic process is impacted by 
the level of understanding of science by the general public. To 
maintain and forward our competitive advantage on a worldwide scale, 
America needs to help make a more scientifically literate citizenry.

  INFORMAL SCIENCE INSTITUTIONS CONDUCT IMPORTANT SCIENTIFIC RESEARCH

    In many museums, original scientific research is conducted that is 
critical for America's future. Identities and distribution of organisms 
that share the planet with us helps us understand climate change, 
environmental degradation, conservation biology all with impacts on the 
food we eat, water we drink, air we breathe, energy we use. Confirming 
the identity of potential organisms from bioterrorism to alien and 
invasive species in our lands and waters, is accomplished by research 
expertise in America's museums. This research is supported by tools 
such as geographic information systems, high throughput DNA analysis, 
bioinformatics, electron microscopy, as well as environmental data 
capture and imaging. A wide range of collaborators with museum-based 
research include federal agencies, institutions of higher learning, 
national laboratories and museums, agencies and NGO's all around the 
world. This research in museums also forms the foundation of 
exhibitions, and engages high school, undergraduate, and graduate 
students as well as professionals. Participation in museum sponsored or 
conducted research provides real world experiences in the scientific 
process for high school, undergraduate and graduate students.

         INFORMAL SCIENCE INSTITUTIONS FOSTER LIFELONG LEARNING

    An increasingly important aspect of our society is providing for 
meaningful learning opportunities for our aging population. Lifelong 
learning for retirees, seniors and others are critical to ensure 
quality of life for this growing segment of our society. Docents and 
volunteers at museums allow people the ability to continue their 
learning experiences until late in life, to stay up-to-date and young 
in ideas and experiences. And they help to teach and serve as role 
models for children. Many docents have retired from careers in science, 
and these programs continue to utilize important resources in our 
communities. Adult education programming offers traditional school 
settings, while museum travel programs and nature tours, hikes and 
forays provide alternative settings and learning opportunities. All of 
these provide our citizens with scientific knowledge and ways of 
thinking that benefit them in choices related to quality of life issues 
and support for scientific and education initiatives.

         OUR IMPACT ON EDUCATION EXTENDS WELL BEYOND OUR WALLS

    The impact of museums goes far beyond the physical buildings 
themselves. Literally tens of millions of Americans access information 
developed by museums via the world wide web on topics as diverse as 
biology, astrobiology, mathematics, physics, geology, foods and energy-
related topics, gaining access to authentic and reliable information 
images, sounds, research results and curricula as well as other 
information resources.
 museums are important partners in realizing america's competitiveness
    So, as we discuss the important roles of education, research and 
incentives for America to stay on the front edge of scientific 
innovations to remain competitive, it is important to consider and 
realize the importance America's museums, science centers, aquaria and 
planetariums play in advancing the knowledge of the general public, in 
all of its diversity, for better lives today and in the future.


</pre></body></html>
